<html>
<title> - FOSTERING QUALITY SCIENCE AT EPA: THE NEED FOR COMMON SENSE REFORM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                   FOSTERING QUALITY SCIENCE AT EPA:
                    THE NEED FOR COMMON SENSE REFORM

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, NOVEMBER 17, 2011

                               __________

                           Serial No. 112-52

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

72-166PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. ANDY HARRIS, Maryland, Chair
DANA ROHRABACHER, California         BRAD MILLER, North Carolina
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
FRANK D. LUCAS, Oklahoma             BEN R. LUJAN, New Mexico
JUDY BIGGERT, Illinois               PAUL D. TONKO, New York
W. TODD AKIN, Missouri               ZOE LOFGREN, California
RANDY NEUGEBAUER, Texas              JERRY McNERNEY, California
PAUL C. BROUN, Georgia                   
CHARLES J. ``CHUCK'' FLEISCHMANN,        
    Tennessee                            
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas













                            C O N T E N T S

                           November 17, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    12

Statement by Representative Paul Tonko, Subcommittee on Energy 
  and Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    15

                               Witnesses:

DR. Paul Anastas, Assistant Administrator, Office Of Research And 
  Development, U.S. Environmental Protection Agency
    Oral Statement...............................................    17
    Written Statement............................................    19

Mr. Arthur Elkins, Jr., Inspector General, U.S. Environmental 
  Protection Agency
    Oral Statement...............................................    22
    Written Statement............................................    24

Mr. David Trimble, Director, Natural Resources And Environment, 
  U.S. Government Accountability Office
    Oral Statement...............................................    30
    Written Statement............................................    33

             Appendix I: Answers to Post-Hearing Questions

DR. Paul Anastas, Assistant Administrator, Office Of Research And 
  Development, U.S. Environmental Protection Agency..............    58

Mr. Arthur Elkins, Jr., Inspector General, U.S. Environmental 
  Protection Agency..............................................    74

Mr. David Trimble, Director, Natural Resources And Environment, 
  U.S. Government Accountability Office..........................    82

            Appendix II: Additional Material for the Record

Submitted Statement for the Record by Mr. M. Granger Morgan, 
  Head, Department of Engineering and Public Policy University 
  and Lord Chair Professor of Engineering, Carnegie Mellon 
  University.....................................................    87

 
                   FOSTERING QUALITY SCIENCE AT EPA:
                    THE NEED FOR COMMON SENSE REFORM

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2011

                  House of Representatives,
                    Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:52 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy 
Harris [Chairman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Harris. The Subcommittee on Energy and Environment 
will come to order. Good afternoon. Welcome to today's hearing 
entitled, ``Fostering Quality Science at EPA: The Need for 
Common Sense Reform.'' In front of you are packets containing 
the written testimony, biographies, and truth in testimony 
disclosures for today's witness panel.
    I now recognize myself for five minutes for an opening 
statement.
    First of all, I want to thank you for your patience as we 
went through our first series of votes, and I want to welcome 
everyone to this afternoon's hearing on ``Fostering Quality 
Science at EPA.'' I would like to note my appreciation at the 
outset to Dr. Anastas for moving his schedule around in order 
to be with us today, but you know, I was a little disappointed 
that we didn't get your testimony until late last night, so I 
haven't had the chance to review it, but I look forward to 
hearing it in person. I trust that you will make sure to try to 
meet the committee deadlines, a little more leeway time there, 
in the future.
    In the last 9 months this committee has held seven 
different hearings on issues related to EPA science and 
process. In each of these hearings we have questioned the 
processes by which the agency ensures the development and 
dissemination of quality science and raised concerns about EPA 
moving forward on specific regulations before the science is 
available to inform those decisions. In today's hearing we are 
discussing the overall science enterprise and its function 
within EPA.
    Research and development at EPA have been authorized by a 
number of environmental laws, but the Environmental Research 
Development and Demonstration Authorization Act or ERDDA is the 
only statute dedicated solely to science activities in the 
agency. This law, first enacted in 1976, was reauthorized 
annually through fiscal year 1981, providing authorization 
levels to address different environmental issues.
    Additionally, ERDDA established the Office of Research and 
Development, required five-year R&D plans, and created EPA 
Science Advisory Board. However, despite numerous efforts in 
both the House and Senate, no reauthorization has occurred in 
30 years.
    EPA is a unique agency in that it performs the functions of 
the scientists, the policymaker, the regulator, and the 
enforcer. Since it has been 40 years since the creation of the 
agency and 30 years since science activities were last 
authorized, it is both appropriate and necessary for Congress 
to evaluate the effectiveness of the EPA in fulfilling all of 
those roles.
    In the current economic climate and given the EPA's breadth 
of jurisdiction over the economy, the agency must be vigilant 
in ensuring that it only promulgates regulations that are 
necessary and appropriate to protect public health and welfare. 
Quality science is an essential requirement in creating these 
regulations, yet time and again EPA's scientific justification 
for many of its rules and regulations have been questioned 
based on concerns with data quality, peer review, lack of 
transparency, and other process problems.
    It has gotten to the point where the perception is that EPA 
may have a pension for pursuing outcome-based science in order 
to validate its regulatory agenda. This has led to a crisis of 
confidence that undermines the ability of the public to trust 
what EPA says, an untenable situation for an agency with 
sweeping authority over the Nation's economic activity.
    So what can be done to fix this dilemma? Is it a question 
of greater oversight, or are there fundamental changes within 
the organization of EPA that are needed to address these 
problems? There have been reports, evaluations, and studies 
over the years that have identified the specific problems 
within the EPA science enterprise.
    Consequently, these reports have contained recommendations 
to the agency on how to alleviate these problems. 
Unfortunately, many of these recommendations have not been 
followed and all too often Congress has been absent from these 
reform efforts.
    As this committee undertakes the process to reauthorize 
ERDDA, I invite any interested stakeholders to provide 
recommendations and suggestions. Similarly, I welcome the 
suggestions of my colleagues across the aisle and hope that 
they will view this as an opportunity to collaborate on much-
needed reforms.
    Science activities at EPA comprise only a fraction of the 
agency's overall budget, but their importance and impact on 
jobs in the economy are enormous. Good regulations must be 
based on good science, and good science requires transparency, 
quality data, and confirmation of processes and results through 
peer review.
    In other words, it requires an adherence to the scientific 
method and longstanding principles governing the incorporation 
and use of scientific and technical information to regulatory 
decision making.
    Again, I want to thank the witnesses for appearing before 
the Subcommittee today. Again, I apologize for the delay, and I 
look forward to a constructive discussion.
    I yield back my time.
    [The prepared statement of Mr. Harris follows:]
               Prepared Statement of Chairman Andy Harris
    I want to welcome everyone to this afternoon's hearing on Fostering 
Quality Science at EPA: The Need for Common Sense Reform. I would like 
to note my appreciation at the outset to Dr. Anastas for moving his 
schedule around in order to be with us today, however, I am 
disappointed that you did not get your testimony to us until 6:00 pm 
last night. I trust that you make sure to meet Committee deadlines in 
the future.
    In the last nine months, this Committee has held seven different 
hearings on issues related to EPA science and process. In each of these 
hearings, we have questioned the processes by which the Agency ensures 
the development and dissemination of quality science and raised 
concerns about EPA moving forward on specific regulations before the 
science is available to inform those decisions. In today's hearing, we 
are discussing the overall science enterprise and its function within 
EPA.
    Research and development in EPA have been authorized by a number of 
environmental laws, but the Environmental Research, Development and 
Demonstration Authorization Act, or ERDDAA (ERDDA) is the only statute 
dedicated solely to science activities in the agency. This law, first 
enacted in 1976, was reauthorized annually through fiscal year 1981 
providing authorization levels to address different environmental 
issues. Additionally, ERDDAA established the Office of Research and 
Development, required 5-year R&D plans and created EPA's Science 
Advisory Board. However, despite numerous efforts in both the House and 
Senate, no reauthorization has occurred in 30 years.
    EPA is a unique agency in that it performs the functions of the 
scientist, the policy maker, the regulator, and the enforcer. Since it 
has been forty years since the creation of the agency, and thirty years 
since science activities were last authorized, it is appropriate and 
necessary for Congress to evaluate the effectiveness of the EPA in 
fulfilling all these roles.
    In the current economic climate and given the EPA's breadth of 
jurisdiction over the economy, the Agency must be vigilant ensuring 
that it only promulgates regulations that are necessary and appropriate 
to protect public health and welfare. Quality science is an essential 
requirement in creating these regulations. Yet time and again, EPA's 
scientific justification for many of its rules and regulations have 
been questioned based on concerns with data quality, peer review, lack 
of transparency and other process problems. It has gotten to the point 
where the perception is that EPA has a penchant for pursuing outcome-
based science in order to validate its regulatory agenda. This has led 
to a crisis of confidence that undermines the ability of the public to 
trust anything EPA says, an untenable situation for an Agency with 
sweeping authority over the nation's economic activity.
    So what can be done to fix this dilemma? Is it a question of 
greater oversight? Or are there fundamental changes within the 
organization of EPA that are needed to address these problems? There 
have been reports, evaluations, and studies over the years that have 
identified the specific problems within the EPA science enterprise. 
Consequently, these reports have contained recommendations to the 
Agency on how to alleviate these problems. Unfortunately, many of these 
recommendations have not been followed, and all too often Congress has 
been absent from these reform efforts.
    As this Committee undertakes the process to reauthorize ERDDAA, I 
invite any interested stakeholders to provide recommendations and 
suggestions. Similarly, I welcome the suggestions of my colleagues 
across the aisle and hope that they will view this as an opportunity to 
collaborate on much needed reforms.
    Science activities at EPA comprise only a fraction of the agency's 
overall budget, but their importance and impact on jobs and the economy 
are enormous. Good regulations must be based on good science, and good 
science requires transparency, quality data, and confirmation of 
processes and results through peer review. In other words, it requires 
an adherence to the scientific method and longstanding principles 
governing the incorporation and use of scientific and technical 
information to regulatory decision-making.
    I want to thanks the witnesses for appearing before the 
Subcommittee today and I look forward to a constructive discussion.

    Chairman Harris. I now want to recognize Mr. Tonko for five 
minutes for an opening statement.
    Mr. Tonko. Thank you, Mr. Chair. Ranking Member Miller 
wanted to be here at the start of this hearing but had a 
scheduling conflict and will join us later. I want to thank 
Chairman Harris for holding a hearing to examine the ability of 
EPA's research enterprise to meet the agency's mission to 
protect public health and the environment.
    Scientific research, knowledge, and technical information 
are fundamental to EPA's mission and inform its standard 
setting, regulatory, compliance, and enforcement functions. The 
agency's scientific performance is particularly important as 
complex environmental issues emerge and evolve, and it is 
science, not partisan politics, which should guide their 
resolution.
    Unfortunately, controversy continues to surround many of 
the agency's areas of responsibility. Let me be clear. There 
may be some legitimate concerns related to EPA's research 
enterprise, but EPA is not the demonic agency that our 
Republican majority has made it out to be this Congress. This 
hearing is the beginning of a real opportunity to become 
informed about structural and substantive concerns related to 
EPA's research activities. I hope that my Republican 
counterparts are really interested in reform that will lead to 
better research to enhance public health and protect our 
environment.
    I do not believe anyone would disagree that we should 
always adhere to best practices, transparency, and indeed, 
integrity in all of our work. That is why in 2008, the Ranking 
Member of this Subcommittee, Mr. Miller, requested that GAO 
take a look at the independent evaluations that have been done 
over the past 20 years and that identified problems with EPA's 
35 laboratories' operations and management.
    In an atmosphere of constrained budgets it is imperative 
that with EPA's increasing need to understand complex 
environmental problems, they are positioned to formulate sound 
environmental protection policies. These independent 
evaluations have called for improved planning, coordination, 
and leadership, as well as consolidation of laboratories. The 
EPA operates some 35 laboratories to provide the scientific 
foundation for its mission. When it was established in 1970, 
EPA inherited 42 laboratories from programs in various federal 
departments. EPA has since closed or consolidated some 
laboratories and created new ones to support its core mission.
    Of course, closing facilities always has an impact on the 
surrounding community. That impact could, perhaps, be amplified 
given the current state of the economy, and we must be mindful 
of such outcomes. Despite this, it is still our responsibility 
to explore all options for productive and effective cost 
savings.
    Independent evaluations of the GAO have highlighted the 
need for the EPA to develop a coordinated planning process for 
its scientific activities and improve agency-wide research 
planning, among many other suggestions. It is important to note 
that these issues are not new under the current Administration. 
They span the activities and inactivity of several 
Administrations. Don't be fooled by the rhetoric on the right 
that the Obama Administration was the impetus of the concerns 
expressed here. These concerns did not appear overnight or in 
just the past three years. They will need to be corrected over 
time, and any reorganization will need to be done in an 
orderly, well thought out manner with much oversight and input.
    In recent years, the IG has put forward many 
recommendations to improve the ORD that appear to have been 
embraced by the agency. Overall, the IG has found that the EPA 
ORD peer review process adequately produces objective 
scientific reviews. As we have said time and time again in this 
committee, good policy and decisions begin with good science. I 
am sure there is room for improvements, and I hope we can work 
together to identify opportunities to make EPA more effective 
in protecting our--the public and our environment.
    Today we are presented with the perfect opportunity to show 
American taxpayers that not every issue needs to be polarizing 
or politicized. It is an opportunity for Congress to be 
productive and objective. It is also an opportunity to put our 
differences aside and have meaningful conversations and 
exchanges of ideas. We need to build upon EPA's scientific 
legacy and ensure that we continue to improve our shared 
environment, including for future generations.
    Chairman Harris, we look forward to working with you in the 
months ahead. With that I conclude my opening remarks but would 
ask, Mr. Chair, that before I yield back, I do have one further 
point of business if you will allow me to continue.
    [The prepared statement of Mr. Tonko follows:]
            Prepared Statement of Representative Paul Tonko
    Mr. Miller wanted to be here at the start of this hearing but had a 
scheduling conflict, and will join us later. I want to thank Chairman 
Harris for holding a hearing to examine the ability of EPA's research 
enterprise to meet the agency's mission to protect public health and 
the environment. Scientific research, knowledge, and technical 
information are fundamental to EPA's mission and inform its standard-
setting, regulatory, compliance, and enforcement functions. The 
agency's scientific performance is particularly important as complex 
environmental issues emerge and evolve. And it is science, not partisan 
politics, which should guide their resolution. Unfortunately, 
controversy continues to surround many of the agency's areas of 
responsibility. Let me be clear, there may be some legitimate concerns 
related to EPA's research enterprise, but EPA is not the demonic agency 
that the Republican Majority has made it out to be this Congress.
    This hearing is the beginning of a real opportunity to become 
informed about structural and substantive concerns related to EPA's 
research activities. I hope that my Republican counterparts are really 
interested in reform that will lead to better research to enhance 
public health and protect the environment.
    I do not believe anyone would disagree that we should always adhere 
to best practices, transparency, and integrity in all of our work. That 
is why in 2008, the Ranking Member of this Subcommittee, Mr. Miller, 
requested the GAO to take a look at the independent evaluations that 
have been done over the past 20 years and that identified problems with 
the EPA's 35 laboratories' operations and management. In an atmosphere 
of constrained budgets, it is imperative that, with EPA's increasing 
need to understand complex environmental problems,they are positioned 
to formulate sound environmental protection policies.
    These independent evaluations have called for improved planning, 
coordination, and leadership, as well as consolidation of laboratories. 
The EPA operates 35 laboratories to provide the scientific foundation 
for its mission. When it was established in 1970, EPA inherited 42 
laboratories from programs in various federal departments. EPA has 
since closed or consolidated some laboratories and created new ones to 
support its core mission. Of course, closing facilities always has an 
impact on the surrounding community. That impact could perhaps be 
amplified given the current state of the economy and we must be mindful 
of such outcomes. Despite this, it is still our responsibility to 
explore all options for productive and effective cost-savings.
    Independent evaluations and the GAO have highlighted the need for 
the EPA to develop a coordinated planning process for its scientific 
activities and improve agency-wide research planning, among many other 
suggestions. It is important to note that these issues are not new 
under the current Administration--they span the activities and 
inactivity of several Administrations. Don't be fooled by the rhetoric 
on the ``right'' that the Obama Administration was the impetus of the 
concerns expressed here. These concerns did not appear overnight or in 
just the past three years. They will need to be corrected over time. 
And any reorganization will need to be done in an orderly, well 
thought-out manner; with much oversight and input.
    In recent years, the IG has put forward many recommendations to 
improve the ORD that appear to have been embraced by the agency. 
Overall, the IG has found that the EPA ORD peer review process 
adequately produces objective scientific reviews. As we have said time 
and time again in this Committee, good policy and decisions begins with 
good science. I am sure there is room for improvement and I hope we can 
work together to identify opportunities to make EPA more effective in 
protecting the public and the environment.
    Today, we are presented with the perfect opportunity to show 
American taxpayers that not every issue needs to be polarizing or 
politicized. It's an opportunity for Congress to be productive and 
objective. It's also an opportunity to put our differences aside and 
have meaningful conversations and exchanges of ideas. We need to build 
upon EPA's scientific legacy and ensure that we continue to improve our 
shared environment, including for future generations.
    Chairman Harris, we look forward to working with you in the months 
ahead. I yield back.

    Chairman Harris. Without objection.
    Mr. Tonko. Mr. Chair, I want to ensure that we include into 
the record the written testimony of Dr. Granger Morgan, the 
former chair of the EPA Science Advisory Board. He included 
with his testimony a letter expressing his frustration with the 
surrounding events of our committee's request for him to 
testify, and he states, and I would read the first two 
paragraphs of his letter that are addressed to you, Andy Harris 
M.D., as Chair, and Representative Brad Miller of North 
Carolina as ranking member of the Subcommittee on Energy and 
Environment.
    ``Dear Congressman Harris and Miller, several days ago I 
was contacted by committee staff about the possibility of 
testifying to the hearing you are holding tomorrow afternoon on 
the EPA Science Advisory Board. Because I had academic 
conflicts I was not able to attend the hearing. Last evening 
your staff indicated that arrangements could be made for me to 
testify over a video link if I could get my testimony prepared 
and submitted by midday today. Accordingly, I dropped 
everything and prepared the testimony that follows. I have just 
now been informed that my testimony is no longer desired.
    I understand that such things happen, however, having 
already spent the time to write my remarks, I thought you and 
some other Members might find it of some use to see what I had 
prepared.''
    Chairman Harris, these are difficult words to read. Here in 
Congress we call on some of the world's best experts to come 
and testify. These are busy people who sacrifice their time and 
their resources as a service to our country. I hope this type 
of situation does not occur again and that under your 
leadership we can improve the committee's relationship with 
potential witnesses going forward.
    Mr. Chair, I ask for unanimous consent to enter this 
testimony into the record.
    Chairman Harris. Thank you very much. Let me just ask for a 
clarification. You want to submit the letter into the record. 
Is that right? So not his testimony?
    Mr. Tonko. It is included altogether I am told. His 
testimony and his letter.
    Chairman Harris. Well, I mean, my concern is that, you 
know, with testimony we would get to actually question people 
who actually submit testimony. So it is just a minor 
clarification. I mean, I am perfectly willing to submit his 
letter, a letter with an attachment into the record, but I 
don't think we can really call it testimony.
    Mr. Tonko. Yeah.
    Chairman Harris. Okay.
    Mr. Tonko. We will abide by that and provide----
    Chairman Harris. Okay.
    Mr. Tonko. --what we have here on behalf of the witness who 
had hoped he could present, Mr. Morgan.
    Chairman Harris. Thank you very much, Mr. Tonko, and we 
will absolutely. I mean, we do want--we recognize that the 
people we ask to appear in front of this committee are very 
busy and sometimes difficult to arrange a schedule, and you 
know, even with the delay today, I mean, sometimes we have to 
juggle even within that schedule, but, yes, it is my desire to 
do that, to make it easy for someone to come and share their 
experience with the American public in a Congressional hearing.
    Mr. Tonko. Mr. Chairman, I thank you, and with that I yield 
back my time.
    Chairman Harris. Thank you very much.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witness panel. 
Our first witness today is Dr. Paul Anastas, well known to the 
Committee and Subcommittee, the Assistant Administrator of the 
Office of Research and Development at EPA. The next witness 
will be Mr. David Trimble, Director of Natural Resources and 
Environment at the U.S. General Accounting Office, and I guess 
the way you are sitting here, the other witness is Mr. Arthur 
Elkins, Inspector General of the U.S. Environmental Protection 
Agency.
    Thank you all for appearing before the Subcommittee today. 
Now, we were notified that we may actually in another half hour 
or so go back for one more vote or possibly two more votes, so 
we are going to go through the testimony. We are going to start 
questioning, and we will see where that ends up.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which Members of the Committee will 
have five minutes each to ask questions.
    I now recognize our first witness, Dr. Paul Anastas, 
Assistant Administrator of the Office of Research and 
Development at the EPA. Dr. Anastas.

                STATEMENTS OF DR. PAUL ANASTAS,

          ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH

              AND DEVELOPMENT, U.S. ENVIRONMENTAL

                       PROTECTION AGENCY

    Dr. Anastas. Good afternoon, Chairman Harris, Congressman 
Tonko, and distinguished Members of the Committee. I am Paul 
Anastas. I am the Assistant Administrator for the Office of 
Research and Development at the U.S. Environmental Protection 
Agency, and I want to thank you for the opportunity to speak 
with you today about EPA's research programs.
    Scientific research is vital to pursuing EPA's mission of 
protecting human health and the environment. As EPA 
Administrator Lisa Jackson has said time and again, science is 
the backbone of EPA. All of the agency's decisions and actions 
are grounded in sound and rigorous science. That is what the 
American people expect and deserve.
    Every day the scientists and engineers in the EPA's Office 
of Research and Development demonstrate excellence and 
dedication in their scientific work. I could not be more proud 
of my colleagues or more confident in their abilities.
    But we all recognize that in science there is no room for 
arrogance. That is why we work closely with our Science 
Advisory Board to obtain independent, external peer review of 
our research plans and with our Board of Scientific Counselors 
to obtain peer review of our research products. At every step 
along way we seek input from the scientific community and the 
public. We welcome their comments, and we address them.
    This process, which can include public comment periods, 
open peer review sessions, and public meetings, is one of the 
most rigorous and transparent peer review processes anywhere. 
We firmly believe that when it comes to science, transparency 
is the most powerful way to ensure integrity. The agency 
depends on its Office of Research and Development to provide 
the scientific tools, assessments, and technologies to inform 
decision making.
    For this reason in addition to being sound and transparent, 
EPA's research must also be highly effective and responsive. 
Over the past year EPA has engaged in a major effort to 
strength its research program with two primary goals. First, to 
ensure that our research most effectively meets the needs of 
those who use and depend upon it, including EPA's program and 
regional offices. Second, to ensure the cohesiveness of 
research across the Office of Research and Development, 
including the development of collaborative research plans that 
cut across multiple disciplines and multiple laboratories.
    With these goals in mind EPA research programs were aligned 
into four crosscutting areas. One, air climate and energy, two, 
safe and sustainable water resources, three, sustainable and 
healthy communities, and four, chemical safety for 
sustainability.
    In addition, EPA is continuing to fulfill its scientific 
responsibilities in two targeted research areas; homeland 
security and human health assessment. Realigning our research 
has made EPA's scientific enterprise more effective by design. 
We have new opportunities to coordinate scientific expertise, 
capabilities, and resources that were previously managed 
separately.
    We have built engagement with EPA's program and regional 
offices into every stage of the research process to ensure that 
their needs are met in a timely and responsive manner. We have 
broken down the traditional boundaries between scientific 
disciplines so that our scientists can more effectively address 
crosscutting real world challenges.
    In their 2011 joint report EPA Science Advisory Board and 
Board of Scientific Counselors stated that they ``strongly 
support ORD's consolidation and realignment of research 
programs.''
    Science and technology in EPA is not limited to the 
agency's Office of Research and Development. A network of 
laboratories spans across ORD, program offices, and regional 
laboratory organizations, each with different objectives toward 
the pursuit of EPA's mission.
    To be clear, the Office of Research and Development 
laboratories conduct research and assessments that inform many 
of the agency's actions and decisions including protective 
standards and guidance. The program offices' office 
laboratories develop science that supports regulatory 
implementation, compliance, and enforcements at the national 
level. Regional laboratories provide technical information to 
support immediate regional needs and regional decision making.
    The recent GAO report on EPA's laboratory network 
recommends that the EPA Administrator take several actions to 
improve the cohesion and management of the agency's 
laboratories. We take these recommendations very seriously, and 
I invite you to review EPA's response to each of these 
recommendations in my written testimony.
    To conclude, EPA has a strong tradition of scientific 
excellence. In all of our research we are committed to strong 
science, continual improvement, and scientific openness on 
behalf of the American people. Thank you for this opportunity 
to appear before you today, and I will be happy to take 
questions at the appropriate time.
    [The prepared statement of Dr. Anastas follows:]
Prepared Statement of Dr. Paul Anastas, Assistant Administrator, Office 
   Of Research And Development, U.S. Environmental Protection Agency
    Good morning Chairman Harris, Ranking Member Miller, and other 
distinguished Members of the Committee. My name is Paul Anastas. I am 
the Assistant Administrator for Research and Development at the U.S. 
Environmental Protection Agency (EPA).
    The Office of Research and Development (ORD) is unique in the 
environmental science community because it conducts intramural and 
extramural research across the entire spectrum of disciplines necessary 
to support the mission of EPA. EPA works with many providers of 
scientific information to accomplish its mission, including 
international and domestic academic institutions, state and local 
agencies, industry, and other federal scientific agencies.
    I appreciate the opportunity to talk with you today about our 
research programs. I understand that the Committee would like me to 
discuss a number of specific issues, but first I would like to talk 
about the bigger picture--where I believe EPA needs to be orienting our 
scientific efforts if it is going to provide the cutting edge knowledge 
and tools needed in the 21st century and to be competitive in the 
world.
    Every day, EPA continues to transform the vision of a healthy 
economy and a healthy environment into reality for all Americans. It's 
a vision that starts with science. The Agency relies on ORD to produce 
scientifically sound research, methods, and tools to fulfill its 
legislative mandates and meet its mission to protect human health and 
the environment. EPA is a world leader in scientific research for human 
health and environmental protection. The environmental breakthroughs 
mentioned above could only be achieved through research and development 
including the that of EPA's scientific research. The cumulative 
benefits of this work, along with work in other sectors, have restored 
ecosystems, improved public health, and increased overall life 
expectancy in a time when our economy and population have continued to 
grow.
    Further, in its 2011 report on Sustainability and the US EPA, the 
National Research Council of the National Academy of Sciences 
recognized that current approaches aimed at decreasing existing risks, 
however successful, are not capable of avoiding the complex problems in 
the US and globally that threaten the planet's critical natural 
resources and put current and future human generations at risk. In 
considering sustainability as a way of ensuring long-term human well-
being, the report also states that the potential economic value of 
sustainability to the U.S. is recognized to not merely decrease 
environmental risks, but also to optimize the social and economic 
benefits of environmental protection.

ORD RESEARCH PROGRAMS

    During the past year, EPA's research programs have been realigned 
to meet the emerging needs of EPA internal and external stakeholders 
while advancing the science needed for sustainability. As a starting 
point, ORD research programs are structured to address the EPA 
strategic goals in the EPA FY 2011-2015 Strategic Plan. ORD'S research 
program are focused on:

    <bullet>  Air, Climate, and Energy;

    <bullet>  Safe and Sustainable Water Resources;

    <bullet>  Sustainable and Healthy Communities; and

    <bullet>  Chemical Safety for Sustainability

    In addition to above 4 programs, EPA has special responsibilities 
for two targeted research programs --homeland security and human health 
risk assessment, which integrates scientific information from EPA and 
other research to develop health assessments for environmental 
contaminants.
    Organizing our research into these six areas provides ORD with 
opportunities to integrate and coordinate research among areas that 
were previously planned and managed separately. For example, the 
Chemical Safety for Sustainability program now integrates research on 
pesticides and toxics, endocrine disruptors, and computational 
toxicology. Similarly, the Safe and Sustainable Waters program brings 
together research on drinking water and surface water quality. Certain 
topics, such as climate change, nitrogen, and children's health, 
involve multiple scientific disciplines and, therefore, require 
integration across research programs.
    Research is conducted by ORD scientists and engineers working in 
laboratories and research facilities at 14 locations around the 
country. They are joined by a network of collaborators and partners, 
including those supported through EPA's Science to Achieve Results 
(STAR) extramural research program. The STAR program provides 
competitive funding opportunities for research grants, graduate and 
undergraduate fellowships, and larger, largely multidisciplinary 
research centers. EPA is also one of 11 federal agencies that 
participate in the Small Business Innovative Research (SBIR) program, 
enacted in 1982 to strengthen the role of small businesses in federal 
research and development, create jobs, and promote technical 
innovation.

Engaging Others in ORD's Research Planning

    We are very serious about ensuring that the research and 
development work in ORD is responsive to the needs of the Agency. Over 
the past year, through meetings with managers and staff in EPA's 
program and regional offices, webinars, ``listening sessions'' with the 
public, and other open platforms, Agency researchers have undertaken an 
unprecedented effort to engage EPA's partners and stakeholders inside 
and outside the government. The discussions sparked collaboration, 
innovation, and creativity from every corner of the EPA research 
community involved in designing needed research. ORD is committed to 
providing ongoing interactions to ensure that Agency program and 
regional offices, states, tribes, and other stakeholders receive the 
scientific information they need to make informed decisions and enforce 
the nation's environmental laws.
    In addition to the steps taken to ensure involvement by the Program 
and Regional Offices in ORD's research planning process, ORD is 
committed to providing scientific expertise to the Program Offices as 
they develop regulations and policy. ORD research also provides the 
tools needed to evaluate management options for thousands of sites 
contaminated by past practices or current environmental releases. 
Further, the Science Advisory Board (SAB) provides expert advice on 
scientific and technical matters within the Agency. We formally request 
the SAB to review our research plans and proposed allocation of ORD 
resources each year and ORD values their input.

PEER REVIEW

    The EPA takes its responsibility concerning peer review very 
seriously. For example, all of ORD's draft human health assessments are 
subjected to rigorous, open, independent, external peer review. The 
external peer reviewers typically convene at a public meeting to 
discuss their comments on our work. . We recognize the importance of 
independent, external peer review in maintaining high standards for the 
quality of the science and technical products that EPA produces and 
sponsors. Peer review is an important component of the scientific 
process that provides a focused, objective evaluation of a draft 
product. The constructive criticisms, suggestions, and new ideas 
provided by the peer reviewers stimulate creative thought, and 
strengthen and confer credibility on the product. Comprehensive, 
objective peer reviews lead to good science and product acceptance 
within the scientific community. Thus, peer review ensures that the 
Agency's scientific reports are held to the highest possible standards.
    EPA makes every effort to assure that the scientists serving on 
these review panels do not have any actual or potential conflicts of 
interest, including an appearance of bias or lack of impartiality. This 
rigorous process is designed to assure that the Agency's peer reviews 
are independent, open, transparent, and of the highest scientific 
quality.

EPA LABORATORIES -- RESPONSE TO THE GAO REPORT

    Now I want to discuss EPA's network of laboratories and the 
Agency's response to the recent GAO report about EPA laboratories. I 
agree with the GAO observation that ``EPA's scientific research, 
technical support, and analytical services underpin the policies and 
regulations the agency implements.'' \1\ The connection between EPA's 
laboratory science and Agency decision-making illustrates the strategic 
importance of EPA's laboratory network. This network consists of 35 
laboratories located in 29 cities nationwide. \2\
---------------------------------------------------------------------------
    \1\ Ibid., page 1.
    \2\ Letter from EPA Deputy Administrator Robert Perciasepe to David 
C. Trimble, Acting Director Natural Resources and the Environment, U.S. 
GAO, July 11, 2011.
---------------------------------------------------------------------------
    EPA's laboratory network is comprised of ORD, program office, and 
regional laboratory organizations. Each of these three laboratory 
organizations has different objectives \3\ with respect to EPA's 
mission-and a common need for coordination with Agency clients and 
partners:
---------------------------------------------------------------------------
    \3\ Letter from EPA Deputy Administrator Robert Perciasepe to David 
C. Trimble, Acting Director Natural Resources and the Environment, U.S. 
GAO, July 11, 2011.

    <bullet>  ORD laboratories have primary responsibility for research 
and development--developing knowledge, assessments, and scientific 
tools that form the underpinnings of the vast majority of EPA's 
---------------------------------------------------------------------------
protective standards and guidance.

    <bullet>  Program Office laboratories have primary responsibility 
for directly supporting regulatory implementation, compliance, and 
enforcement at a national level--e.g., motor vehicle standards testing, 
pesticide registration.

    <bullet>  Regional laboratories are responsible for providing 
scientific data and sampling results which support the Regional 
environmental programs' needs for immediate information to make 
decisions on environmental conditions, enforcement, and progress to 
achieve our nation's standards for environmental and human health.

    While the scientific activities of EPA's research and program 
laboratories focus on long-term outcomes at a national level, EPA's 
regional laboratories are designed and organized to meet the near-term 
decision-needs of their Regions, State, and Tribal partners.
    EPA has benefited from advice by the U.S. Government Accountability 
Office (GAO)-most recently, from the GAO study of EPA's laboratory 
network published in July 2011.
    The report from GAO identifies a number of challenges to managing 
federal laboratories government-wide. \4\ One major challenge is the 
increasing cost of maintaining the portfolio of aging federal 
laboratory facilities. A second major challenge is reducing the energy 
consumed by laboratory facilities.
---------------------------------------------------------------------------
    \4\ See the GAO High Risk Series on Federal Real Property, 
beginning with U.S. GAO-03-122, January 30, 2003.
---------------------------------------------------------------------------
    These facilities consume more energy and emit more greenhouse gases 
per square foot of floor space than virtually any other type of 
facility-from five to ten times the amount of energy than office 
buildings with an equivalent footprint. \5\ EPA recognizes that 
improving the energy and environmental ``footprint'' of federal 
laboratory facilities is important for our nation's strategy to achieve 
energy independence, improve the environment, and reduce consumption of 
natural resources. \6\ In fact, Executive Order 13514 requires that 
each federal agency prepare a strategic sustainability plan to guide 
its efforts to `green' its facilities to improve their effectiveness 
and efficiency. \7\
---------------------------------------------------------------------------
    \5\ Letter from EPA Deputy Administrator Robert Perciasepe to David 
C. Trimble, Acting Director Natural Resources and the Environment, U.S. 
GAO, July 11, 2011, pages 1-2.
    \6\ ``Laboratories for the 21st Century: Program Overview.'' U.S. 
Environmental Protection Agency and Federal Energy Management Program. 
January 2004.
    \7\ Executive Order 13514 of 2009. Federal Register Vol 74 No 194, 
52117-52127. October 8, 2009
---------------------------------------------------------------------------
    The GAO report on EPA's laboratory network recommends that the 
Administrator of EPA take seven actions to improve the cohesion and 
management of the Agency's laboratories. In general, EPA agrees with 
these GAO recommendations. EPA's Deputy Administrator Bob Perciasepe 
communicated EPA's response to the GAO recommendations in a July 2011 
letter, which GAO included in its report. \8\ Here are highlights of 
the seven GAO recommendations and EPA's responses:
---------------------------------------------------------------------------
    \8\ This letter appears as Appendix IV (pages 39-45) in the GAO 
report cited in the first footnote.

 1) Develop an overarching issue-based planning process that reflects 
the collective goals, objectives, and priorities of the laboratories' 
---------------------------------------------------------------------------
scientific activities.

   EPA will consult with stakeholders to determine the best approach to 
develop an overarching planning process and system.

 2) Establish a top-level science official with the authority and 
responsibility to coordinate, oversee, and make management decisions 
regarding major scientific activities throughout the agency, including 
the work of all program, regional, and research laboratories.

   EPA will expand the authority and responsibility of the Agency's 
Science Advisor to coordinate, oversee, and make recommendations to the 
Administrator regarding major scientific activities throughout the 
agency, including the work of all program, regional, and ORD 
laboratories. EPA's Science and Technology Policy Council (STPC) will 
assist the Science Advisor with these new responsibilities. This 
Council brings together senior leaders from EPA's programs, regions, 
and laboratories to address the Agency's high priority science-policy 
issues.

 3&4) Improve the Agency's physical infrastructure and real property 
planning and investment decisions by: managing individual laboratory 
facilities as part of an interrelated portfolio of facilities, and 
ensuring that facility ``master plans'' are up-to-date and that 
analysis of the use of space is based on objective benchmarks.

   EPA will strengthen its master planning process-which the Agency 
believes overall has kept the Agency's laboratories and their support 
buildings in good condition. Over the next 3-5 years the Agency plans 
to: upgrade and streamline the master planning process; update the 
plans as required; reinforce the current master planning portfolio 
perspective; and strengthen the ties between the current annual and 
five year Building & Facility call letter process and the master plans.

 5) Improve the completeness and reliability of operating-cost and 
other data needed to manage its real property and report to external 
parties.

   EPA will continue to refine the master planning process to upgrade 
and validate its internal operating costs and other metrics. EPA is 
also reviewing options for improving data reliability and completeness 
for the remaining labs within its laboratory enterprise.

 6) Develop a comprehensive workforce planning process for all 
laboratories that is based on reliable workforce data and reflects 
current and future agency needs in the overall number of federal and 
contract employees, skills, and deployment across all laboratory 
facilities.

   EPA will develop a workforce planning process for its laboratory 
network as part of a broader Agency workforce planning process.

 7) If the EPA Administrator determines that another independent study 
of EPA laboratories is needed, then the Agency should include--within 
the charge questions for this study--alternate approaches for 
organizing the laboratory workforce and infrastructure. These alternate 
approaches should include options for sharing and consolidation.

   The FY 2012 President's Budget includes funds to conduct a study of 
EPA's laboratory enterprise which considers the long-term research 
needs of the Agency while seeking opportunities to promote efficiencies 
and reduce the Agency's physical footprint. This study will be 
conducted by an independent expert body. EPA will request that this 
external body consider information in this GAO report and alternate 
approaches for organizing the workforce and infrastructure of EPA's 
laboratory network, and explore options for consolidation.

CONCLUSION

    In conclusion, I believe that we have a strong tradition of 
excellence in science at EPA--and that we are poised to build upon this 
tradition and take environmental protection to the next level. EPA 
scientists and engineers, as members of, and in collaboration with, the 
broader scientific community, are applying scientific innovation to 
spark the scientific and technological breakthroughs that lie just over 
the horizon--emission-free vehicles; smart phone apps that provide key 
environmental and health information; benign, ``green'' chemical 
processes and products; and water recycling and reuse technologies. 
Agency scientists, researchers, and their partners, are working toward 
the vision of a sustainable future.
    I look forward to working with the Committee to address current and 
emerging environmental problems that will help our Agency protect the 
environment and human health. Thank you for the opportunity to appear 
before you today.

    Chairman Harris. Thank you very much, Dr. Anastas.
    I now recognize our second witness, Mr. Arthur Elkins, 
Inspector General of the U.S. Environmental Protection Agency. 
Mr. Elkins.

  STATEMENT OF MR. ARTHUR ELKINS, JR., NSPECTOR GENERAL, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Elkins. Thank you. Good afternoon, Chairman Harris, 
Congressman Tonko, and Members of the Subcommittee. I am Arthur 
Elkins, Jr., Inspector General at the EPA. I am pleased to 
appear before you today to discuss recent work conducted by my 
office related to EPA's Office of Research and Development. My 
submitted statement for the record details this work. Today I 
want to focus on three areas; peer review panels, scientific 
integrity, and EPA's overall workforce and workload, which have 
implications for ORD.
    Peer review is an important process for enhancing 
scientific work products so that the decisions made by EPA have 
a sound, credible basis. In 2009, we reviewed EPA's peer review 
process in response to concerns about EPA's handling of 
allegations of a lack of impartiality on one of its peer review 
panels. Our review focused on EPA's National Center for 
Environmental Assessment, one of ORD's primary users of peer 
reviews. We found that the laws, regulations, and requirements 
governing EPA's peer review process are adequate to produce 
objective scientific reviews, but that EPA needed to improve 
its operating guidance. Basically, impartiality was vaguely 
defined and procedures addressing conflict of interest needed 
to be improved, as does documentation of resolutions.
    We made recommendations to ORD to improve its peer review 
process in each of these areas. ORD agreed to all of our 
recommendations and certified that these corrective actions 
were completed in December 2009.
    This year we looked at whether ORD has controls to address 
scientific integrity and research misconduct, and how effective 
those controls are. We found that ORD has internal controls 
that includes policies, procedures, training, and peer review. 
However, ORD could improve how it evaluates the effectiveness 
of its policies and procedures for scientific integrity. ORD 
did not test its policies and procedures because ORD asserted 
that few reported instances of misconduct meant that it 
generally does not occur. However, few identified instances 
could signal that staff lack awareness of criteria and 
reporting requirements necessary to identify and report 
misconduct. As part of our work we surveyed ORD science staff 
on their awareness of EPA scientific integrity policies. We 
found that nearly 2/3 of respondents were unaware of EPA's 
policies and procedures on research misconduct, and nearly 1/3 
of respondents were unaware of EPA's scientific integrity 
principles.
    We made recommendations to ORD to strengthen their controls 
and raise awareness about scientific integrity and research 
misconduct. ORD agreed with our recommendations and plans to 
complete all corrective actions by September 2012.
    For an organization to operate efficiently and effectively 
it must know what its workload is so that it can accurately 
determine the resource levels needed to carry out its work. We 
have issued three reports since 2010 examining how EPA manages 
its workload and workforce levels overall, which I believe have 
implications for ORD.
    We found that EPA has not collected comprehensive workload 
data or conducted workload analys is across the Agency in about 
20 years. The Agency does not require program offices to 
collect and maintain workload data. Without sufficient workload 
data, program offices are limited in their ability to analyze 
their workloads and accurately estimate resource needs. 
Therefore, the Agency must base budget decisions primarily on 
subjective justifications at a time when budgets continue to 
tighten, and data-driven decisions are critical.
    We also found that the agency's policies and procedures do 
not include a process for determining resource levels based on 
workload as prescribed by OMB. As a result, the agency cannot 
demonstrate that it has the right number of resources to 
accomplish its mission.
    Finally, we found that the Agency does not have a coherent 
program of position management to assure the efficient and 
effective use of its workforce.
    We made several recommendations to address these findings. 
EPA has not committed to a specific course of action with 
milestones for completion for many of our recommendations. 
Therefore, they remain open pending our receipt of an 
acceptable corrective action plan.
    In conclusion, OIG work has identified areas where ORD can 
improve its operations and activities so it can better provide 
the solid underpinning of science necessary for EPA regulatory 
decision making. I believe the OIG has made a positive impact 
through the many recommendations we have made to ORD in those 
areas. To their credit, ORD has been receptive to many of our 
recommendations. We will continue to work with ORD to identify 
additional areas needing attention.
    Thank you for the opportunity to testify before you today. 
I would be pleased to answer any questions the Subcommittee may 
have.
    [The prepared statement of Mr. Elkins follows:]
 Prepared Statement of Mr. Arthur Elkins, Jr., Inspector General, U.S. 
                    Environmental Protection Agency
    Good afternoon Chairman Harris, Ranking Member Miller, and Members 
of the Subcommittee. I am Arthur Elkins, Jr., Inspector General at the 
U.S. Environmental Protection Agency (EPA). I also serve as the 
Inspector General of the U.S. Chemical Safety and Hazard Investigation 
Board. I am pleased to appear before you today for the first time since 
becoming Inspector General in June 2010 to discuss recent work 
conducted by my office related to EPA's Office of Research and 
Development (ORD). As the scientific research arm of EPA, ORD conducts 
research on ways to prevent pollution, protect human health and the 
environment, and reduce risk. ORD's role is critical given that EPA 
relies on sound science to safeguard human health and the environment.
    Under the Inspector General Act of 1978, as amended, Inspectors 
General are tasked with promoting economy and efficiency, and 
identifying fraud, waste and abuse within their respective agencies. In 
recent years, the Office of Inspector General (OIG) has increased its 
focus on ORD's operations and activities. My testimony today highlights 
the results of this work from 10 selected reports issued since 2009 in 
the following areas: ORD controls, performance measures and resources; 
and ORD's role in providing research for decision-making in selected 
program areas.

ORD Controls, Performance Measures and Resources

    OIG work has identified areas for improvement regarding ORD peer 
review panels, internal controls to address scientific integrity and 
research misconduct, performance measures, and how EPA manages its 
workforce and workload that have implications for ORD.

Peer Review Panels

    Peer review is a process for enhancing a scientific or technical 
work product so that the decision or position taken by EPA, based on 
that product, has a sound, credible basis. The former EPA Deputy 
Administrator requested we review EPA's peer review process in response 
to concerns about EPA's handling of allegations of impartiality on one 
of its peer review panels. Our review focused on EPA's National Center 
for Environmental Assessment (NCEA) peer review process. Specifically, 
our objectives were to determine whether: 1) current laws, regulations, 
guidance, and other relevant requirements for such panels are adequate 
to produce objective scientific reviews; and 2) the current system of 
populating and managing such expert panels could be improved.
    In our April 2009 report, we noted that NCEA's peer review panel 
selection process did not differ in many aspects when compared to the 
processes of four other science-based organizations. One noteworthy 
difference impacting panel selection was that Federal Advisory 
Committee Act (FACA) panels, such as the National Academy of Sciences 
and EPA's Science Advisory Board, attempt to achieve consensus among 
panelists, and concerns about impartiality of panel members can be 
mitigated by balancing the panel with varying viewpoints. Since NCEA 
peer review panels are not designed to obtain consensus, NCEA strives 
to select ``impartial'' panelists. However, we found that this concept 
was vaguely defined in Office of Management and Budget (OMB) and EPA 
guidance and was not explained in any NCEA-specific operating guidance. 
Further, NCEA did not have procedures for addressing conflicts of 
interest or potential biases impacting a panelist's impartiality that 
became known after a panel had completed its deliberations. Finally, 
there was no clear documentation of authority and responsibility for 
making final determinations regarding panel selection or how potential 
conflicts of interest were resolved.
    We made several recommendations to ORD to improve the peer review 
process. Among them were: 1) define the concept of ``impartiality'' and 
maintain records of all management decisions pertaining to the 
selection of peer reviewers, particularly resolution of potential 
conflicts of interest; 2) in cases where panelists with potential 
conflicts or biases are accepted on the panel, the records should 
include a memorandum of decision explaining the suitability and 
rationale for including or excluding each panelist, which is signed off 
on by an EPA official; and 3) develop guidance to address conflict of 
interest issues that arise after panel formulation and amend contracts 
for external peer review services to require that panelists re-certify 
their conflict of interest status prior to the panel convening. ORD 
agreed to all of our recommendations and provided an acceptable 
corrective action plan. EPA certified that these corrective actions 
were completed in December 2009.

Scientific Integrity

    Since EPA decision-making relies on science, it is critical that 
EPA's scientific and technical activities be of the highest quality and 
credibility. Since 2000, a number of federal and EPA policies on 
ensuring the integrity of government science have been issued. EPA 
Order 3120.5 implements the federal policy on research misconduct, and 
ORD and others formulated the ``Principles of Scientific Integrity'' 
and the Principles of Scientific Integrity E-Training to further 
highlight professional ethics for EPA scientists. We looked at whether 
ORD has controls to address scientific integrity and research 
misconduct and how effective those controls are.
    We reported in July 2011 that ORD has internal controls that 
include policies, procedures, training, and peer review. However, ORD 
should improve how it evaluates the effectiveness of its policies and 
procedures for scientific integrity and research misconduct. Currently, 
ORD does not test its policies and procedures because ORD asserts that 
few reported instances of misconduct means that it generally does not 
occur. However, few identified instances of research misconduct could 
signal that staff lacks awareness of key criteria and reporting 
requirements necessary to identify and report misconduct.
    We issued an electronic survey to over 1,300 ORD science staff on 
their awareness of EPA's scientific integrity and research misconduct 
policies and procedures. We found that 65 percent of respondents were 
unaware of EPA Order 3120.5, and 32 percent were unaware of EPA's 
Principles of Scientific Integrity. We also found that ORD has not 
updated the Principles of Scientific Integrity E-Training since June 
2005. The existing e-training is not mandatory for ORD staff and does 
not include actual examples to aid understanding by training 
participants. Sixty-five percent of our survey respondents indicated 
they had not completed the e-training. Those who have not completed the 
training may be unaware of key criteria regarding scientific integrity.
    We made three recommendations to ORD. First, periodically test the 
effectiveness of controls in place to address scientific integrity and 
research misconduct. Second, work across EPA offices to initiate 
outreach on EPA Order 3120.5 to raise awareness on roles/
responsibilities and reporting steps, and to identify EPA staff and 
managers who should complete the Principles of Scientific Integrity E-
Training. Finally, continue to work with unions to update and implement 
E-training. Without these additional internal control efforts, ORD 
risks having its science called into question, potentially lessening 
the credibility of its work. ORD agreed with our recommendations and 
subsequently followed up with a corrective action plan addressing our 
recommendations. ORD plans to complete all corrective actions by 
September 2012.

ORD Performance Measures

    In 2010, ORD had twelve national research programs that provided 
science to support EPA's goals in its strategic plan. One research 
program, the Land Research Program (LRP), provided the science and 
technology needed to preserve land, restore contaminated properties, 
and protect public health from environmental contaminants. The LRP 
spent $186.2 million on land-related research between fiscal years 
(FYs) 2005 and 2009. We conducted a review to determine whether the LRP 
had appropriate performance measures for assessing the effectiveness of 
its research products.
    The difficulty of measuring research performance has been 
recognized by the National Research Council of the National Academies 
(NRC) and other authoritative sources. No single measure can adequately 
capture all elements of research performance. LRP employed a variety of 
methods to assess its research performance, such as: 1) OMB Program 
Assessment Rating Tool (PART) measures; 2) client feedback; and 3) peer 
reviews by EPA's Board of Scientific Counselors (BOSC) who provides 
advice, information, and recommendations on ORD's research programs.
    In our August 2010 report, we noted that improvements were needed 
in each area to better enable ORD to assess the effectiveness of LRP 
research products. Key findings included: LRP did not have measures 
that assessed progress toward short-term outcomes; LRP's citation 
analysis PART measures were not meaningful to ORD program managers and 
were not linked to LRP's goals and objectives; ORD's survey of LRP 
clients did not provide a meaningful measure of customer feedback 
because ORD's client survey was not reliable; LRP lacked some key 
measures that would aid BOSC in conducting its LRP program reviews; and 
ORD had not clearly defined elements of its long-term goal rating 
guidance for BOSC reviews.
    Several underlying issues impacted ORD's development of LRP 
performance measures. These included the inherently difficult nature of 
establishing outcome-oriented research measures and ORD's decision not 
to tailor its measures to each research program. As a result, ORD had 
invested resources in performance measures and tools that had not 
effectively measured key aspects of LRP performance. The measures did 
not provide LRP with the data to assess program progress towards goals, 
identify areas for program improvement, or track the short-term 
outcomes of its research.
    We made several recommendations to ORD to improve LRP's research 
measures, including that ORD: 1) develop measures linked to short-term 
outcomes in LRP's Multi-Year Plan; 2) augment LRP's citation analysis 
with measures meaningful to ORD program managers and linked to LRP's 
goals and objectives; 3) develop an implementation plan for the client 
survey to ensure that the program has a reliable method for assessing 
relevance (or develop a reliable alternative customer feedback 
mechanism); 4) provide appropriate performance measurement data to BOSC 
prior to full program reviews; and 5) revise its long term goal rating 
guidance to BOSC for program reviews. ORD generally agreed with our 
recommendations and provided an acceptable plan of action to address 
our recommendations.

EPA Workload and Workforce

    Over the last five years, EPA has averaged over 17,000 positions in 
its organizational structure with annual payroll costs of approximately 
$2 billion. ORD's enacted budget for FY 2011 was $582.1 million with an 
authorizing level of 1907.2 full-time staff. For any organization to 
operate efficiently and effectively, it must know what its workload is. 
While there is no one exact definition of workload, it is commonly 
thought to be the amount of work assigned to, or expected to be 
completed by, a worker in a specified time period. Workload that is set 
too high or too low can negatively affect overall performance. The main 
objectives of assessing and predicting workload are to achieve an 
evenly distributed, manageable workload and to accurately determine the 
resource levels needed to carry out the work. The OIG has issued three 
reports since 2010 examining how EPA manages its workload and workforce 
levels. While not specifically focused on ORD, our findings and 
recommendations are applicable to ORD since they span across EPA 
programs and offices.
    We found that EPA has not collected comprehensive workload data or 
conducted workload analyses across EPA in about 20 years. EPA does not 
require program offices to collect and maintain workload data, and the 
programs do not have databases or cost accounting systems in place to 
collect data on time spent on specific mission-related outputs. OMB 
guidance states that agencies should identify their workloads to help 
determine the proper workforce size, and federal accounting standards 
require that agencies establish cost accounting systems to allow them 
to determine resources consumed for work performed. Without sufficient 
workload data, program offices are limited in their ability to analyze 
their workloads and accurately estimate resource needs, and EPA's 
Office of Budget must base budget decisions primarily on subjective 
justifications at a time when budgets continue to tighten and data-
driven decisions are needed.
    We also found that EPA's policies and procedures do not include a 
process for determining resource levels based on workload as prescribed 
by OMB. Further, EPA does not determine the number of positions needed 
per mission-critical occupation using workforce analysis as required by 
the Office of Personnel Management. These conditions occurred because 
EPA has not developed a workload assessment methodology and has not 
developed policies and procedures that require workload analysis as 
part of the budget formulation process. As a result, EPA cannot 
demonstrate that it has the right number of resources to accomplish its 
mission.
    Finally, we found that EPA does not have a coherent program for 
position management to assure the efficient and effective use of its 
workforce. Position management provides the operational link between 
human capital goals and the placement of qualified individuals into 
authorized positions. While some organizational components have 
independently established programs to control their resources, there is 
no Agency-wide effort to ensure that personnel are put to the best use. 
Without an Agency-wide position management program, EPA leadership 
lacks reasonable assurance that it is using personnel in an effective 
and efficient manner to achieve mission results.
    We made several recommendations to address these findings including 
that EPA: 1) conduct a pilot project requiring EPA offices to collect 
and analyze workload data on key project activities; 2) amend guidance 
to require that EPA complete a workload analysis for all critical 
functions to support its budget request; and 3) establish an Agency-
wide workforce program that includes controls to ensure regular reviews 
of positions for efficiency, effectiveness, and mission accomplishment. 
EPA has not committed to a specific course of action with milestone 
dates for completion for many of our recommendations, therefore they 
remain open pending completion.

ORD Role in Providing Research for Decision-Making in

Selected Program Areas

    OIG work has also raised concerns about ORD's limited role in 
chemical risk programs such as the children's chemical evaluation and 
endocrine disruptor programs, and about the processes and procedures 
for climate change research and greenhouse gases endangerment finding.

Voluntary Children's Chemical Evaluation Program

    EPA utilizes voluntary partnership programs to help it address a 
wide array of environmental issues by collaborating with companies, 
organizations and communities. EPA often relies on scientific data 
provided by its partners and self-certifications rather than 
independently validate such data. The result is that ORD often plays a 
limited role in these partnership programs. One example is the 
Voluntary Children's Chemical Evaluation Program (VCCEP), a pilot 
program administered by EPA's Office of Chemical Safety and Pollution 
Prevention (OCSPP) and designed to assess the possible risks from 23 
chemicals. EPA asked the manufacturers and importers of these chemicals 
to volunteer to provide data sufficient for EPA to evaluate the risks 
of these chemicals to children's health.
    In a July 2011 report, we reviewed the VCCEP to determine the 
outcomes of the program. Overall, we found that poor program design and 
EPA's failure to use its regulatory authorities under the Toxic 
Substances Control Act to compel data collection from industry partners 
resulted in the failure of the VCCEP as an effective children-specific 
chemical management program. ORD did not have a lead role in any aspect 
of the program. ORD activities were limited mainly to participating as 
a stakeholder during the program's design phase, and placing an ORD 
scientist on the Peer Consultation Panel. The panel, comprised of 
experts in toxicity testing and exposure evaluations, independently 
analyzed the submitted data to determine whether additional data was 
necessary to adequately characterize the risks the chemical may pose to 
children. An independent third party was used to manage this peer 
consultation process rather than ORD.

Endocrine Disruptor Screening Program
    In our May 2011 report, we reviewed whether EPA has planned and 
conducted the requisite research and testing to evaluate and regulate 
endocrine-disrupting chemicals. We specifically focused on EPA's 
Endocrine Disruptor Screening Program (EDSP), which is administered by 
OCSPP with support from ORD. The Food Quality Protection Act, passed in 
1996, gave EPA the authority to screen and test substances that may 
have an effect in humans similar to that of a naturally occurring 
estrogen, or such other endocrine effects as the EPA Administrator may 
designate. Congress also passed the Safe Drinking Water Act amendments 
in 1996, which provided EPA additional discretionary authority to test 
substances. In 1998, EPA established the EDSP, which uses a two-tiered 
screening and testing approach to assess endocrine effects.
    We found that EPA has not adequately addressed the emerging issue 
of endocrine disruptors. The program has made little progress in 
identifying endocrine-disrupting chemicals. While we acknowledge that 
EDSP encountered difficulties and delays, its lack of progress is also 
due to EPA's lack of management control over the program. EDSP has not 
developed a management plan laying out the program's goals and 
priorities or established outcome performance measures to track program 
results. EDSP has not finalized specific procedures to evaluate testing 
results. Finally, EDSP has not clearly defined the universe of 
chemicals it plans to evaluate over time. Developing a management plan 
would ensure that the program's goals and priorities are transparent so 
EPA's leadership and Congress can assess whether the goals of the 
program are being achieved within reasonable cost and schedule.
    ORD provides support for EDSP. EPA established the Endocrine 
Disruptor Research Program in 1995, which conducts both basic and 
applied research to develop the fundamental scientific principles used 
by EPA program and regional offices in making risk assessment 
decisions. ORD also conducted the underlying research to develop many 
assays for chemical testing. ORD identified endocrine disruptors as one 
of its top six research priorities and since 1998, ORD has issued a 
research plan and two multiyear plans concerning endocrine disruptors. 
Within the multiyear plans, ORD specifically identified the support of 
EDSP as one of its three long-term goals. However, ORD stated in its 
draft Multiyear Plan for Endocrine Disruptors for FY 2007-2013 that the 
long-term goal of supporting EPA's EDSP will not be carried forward 
beyond 2011. According to the plan, all future work would be under a 
different long-term goal. It is unclear what impact, if any, this will 
have on the program.
Climate Change Research
    Since the enactment of the Global Change Research Act of 1990, 
EPA's research on climate change - also known as global warming--has 
been part of a national and international framework. EPA is 1 of 13 
federal agencies that make up the U.S. Global Change Research Program, 
which is a multi-agency effort focused on improving our understanding 
of the science of climate change and its potential impacts. Part of 
EPA's role is to understand the regional consequences of global change. 
ORD manages EPA's climate change research function through its Global 
Change Research Program. EPA's Office of Air and Radiation conducts 
activities related to mitigating greenhouse gases.
    In a February 2009 report we looked at how well EPA policies, 
procedures, and plans help ensure that its climate change research 
fulfills its role in climate change. We found that EPA did not have an 
overall plan to ensure developing consistent, compatible climate change 
strategies across the Agency. We surveyed EPA regions and offices and 
found they needed more information on a variety of climate change 
topics. They needed technical climate change research and tools as well 
as other climate change policy guidance and direction. We learned that, 
in the absence of an overall Agency plan, EPA's Office of Water and 
several regional offices had independently developed, or were 
developing, their own individual climate change strategies and plans. 
The lack of an overall climate change policy can result in duplication, 
inconsistent approaches, and wasted resources among EPA's regions and 
offices.
    At the time of our report, EPA's plan for future climate change 
research did not address the full range of emerging information needs. 
Specifically, the projected time of completion or the scope of some 
research projects did not match the timing or the scope of regions' 
needs. ORD did not have a central repository of its climate change 
research for its internal users, nor did it effectively communicate the 
results of its climate change research to EPA's internal users. While 
ORD collected research requirements from regions and program offices, 
the selection criteria for research topics were not transparent to the 
regions. Finally, ORD did not have a system to track research requests 
through completion, or a formal mechanism to obtain feedback from its 
users.
    We made several recommendations to ORD to establish various 
management controls to ensure EPA fulfills its emerging climate change 
role and related information needs. Among our recommendations was that 
ORD must continue to routinely update the Science Inventory to include 
the latest information from its laboratories and centers; establish a 
formal mechanism to track regional research needs from research project 
selection to completion; and establish a formal method for coordinating 
research work with regions and program offices, communicating research 
results, and collecting feedback on research products. ORD agreed with 
our recommendations and has certified that all corrective actions have 
been completed.

Greenhouse Gases Endangerment Finding

    In September 2011, we reported on our review of the process EPA 
used to make and support its greenhouse gases endangerment finding 
based on a congressional request. Our objective was to determine 
whether EPA followed key federal and EPA regulations and policies in 
obtaining, developing, and reviewing the technical data used to make 
and support its greenhouse gases endangerment finding. Our review 
examined the data quality procedures EPA used in developing the 
endangerment finding. We made no determination regarding the impact 
that EPA's information quality control systems may have had on the 
scientific information used to support the finding. We did not test the 
validity of the scientific or technical information used to support the 
endangerment finding, nor did we evaluate the merit of EPA's 
conclusions or analyses.
    We found that EPA met statutory requirements for rulemaking and 
generally followed requirements and guidance related to ensuring the 
quality of the supporting technical information. However, EPA's peer 
review of the technical support document (TSD) for the endangerment 
finding did not meet all OMB requirements for peer review of a highly 
influential scientific assessment primarily because the review results 
and EPA's response were not publicly reported, and because 1 of the 12 
reviewers was an EPA employee. In our opinion, the TSD was a highly 
influential scientific assessment because EPA weighed the strength of 
the available science by its choices of information, data, studies, and 
conclusions included in and excluded from the TSD. EPA officials told 
us they did not consider the TSD a highly influential scientific 
assessment. We also found that no contemporaneous supporting 
documentation was available to show what analyses EPA conducted prior 
to disseminating information from other agencies in support of its 
greenhouse gases endangerment finding.
    We recommended that ORD: 1) revise its Peer Review Handbook to 
accurately reflect OMB requirements for peer review of highly 
influential scientific assessments; 2) instruct program offices to 
state in proposed and final rules whether the action is supported by 
influential scientific information or a highly influential scientific 
assessment; and 3) revise its assessment factors guidance to establish 
minimum review and documentation requirements for assessing and 
accepting data from other organizations. EPA stated that its response 
to the final report will address our recommendations. We consider our 
recommendations unresolved pending our receipt and analysis of EPA's 
response to our final report, which is due at the end of December 2011.

Unimplemented ORD Recommendations

    The Subcommittee expressed an interest in OIG recommendations that 
ORD has not implemented. Unimplemented recommendations refer to 
recommendations from prior OIG reports on which corrective actions have 
not been completed. The OIG is mandated by the Inspector General Act to 
identify unimplemented recommendations in our semiannual reports to 
Congress. We prepare a Compendium of Unimplemented Recommendations to 
satisfy this requirement. Our Compendium highlights for EPA management 
those significant recommendations from previous semiannual reports to 
Congress that have remained unimplemented past the date agreed upon by 
EPA and the OIG. It also provides a listing of all of the other 
significant recommendations with future completion dates.
    In our most recent Compendium, we identified one unimplemented 
recommendation by ORD that is past due from a 2009 report that reviewed 
actions EPA has taken to mitigate health risks from chemical vapor 
intrusion at contaminated sites. We specifically recommended that ORD 
finalize toxicity values for Trichloroethylene and Perchloroethylene in 
the Integrated Risk Information System database. The agreed-to 
completion date was September 30, 2011. We also identified eight 
unimplemented recommendations with future planned completion dates from 
four reports. Corrective actions are set to be completed by ORD on 
these recommendations ranging from December 2011 out to 2015.

Planned and Ongoing Work on ORD Activities

    In addition to the completed work discussed above, the OIG is 
currently conducting reviews of other ORD activities that may be of 
interest to the Subcommittee. One area we are reviewing is ORD's 
management of Science to Achieve Results (STAR) grants, which fund 
research grants and graduate fellowships in numerous environmental 
science and engineering disciplines through a competitive solicitation 
process and independent peer review. For FYs 2008 through 2010, this 
program received over $90 million in funding. We are planning a review 
of the actions EPA takes before awarding a STAR grant and during its 
monitoring of a grant to ensure no research misconduct occurs. We 
expect to start this work during the current FY. We have also started 
an evaluation of ORD's review process for proposals submitted for one 
particular STAR grant competition. Specifically, our objectives are to 
determine whether ORD followed applicable federal and EPA policies and 
procedures in managing the technical peer review panel process, and 
communicated with grant applicants in an accurate, timely, appropriate, 
and transparent manner regarding the status of their proposals. We 
expect to complete this work by April 2012.
    Another area we are currently examining is EPA's approach to 
nanomaterials, which has become an emerging issue. Nanomaterials are 
particles so tiny they cannot be detected by conventional microscopes. 
These miniscule materials are being widely used in consumer products 
because of their unique properties and potential benefits, but the 
health and environmental implications associated with their use have 
not been fully determined. We have started a review to determine how 
effectively EPA is managing the human health and environmental risks of 
nanomaterials. We expect to complete this work by January 2012.

Conclusion

    OIG work has identified areas where ORD can improve its operations 
and activities so it can better provide the solid underpinning of 
science and technology necessary for EPA regulatory decision-making. I 
believe the OIG has been a positive agent of change through the many 
recommendations we have made to ORD in those areas. To their credit, 
ORD has been receptive to many of our recommendations. We will continue 
to work with ORD to identify additional areas needing attention.
    Thank you for the opportunity to testify before you today. I would 
be pleased to answer any questions the Subcommittee may have.

    Chairman Harris. Thank you very much, Mr. Elkins.
    Our third and final witness, Mr. David Trimble, Director of 
Natural Resources and Environmental at the U.S. General 
Accounting Office. Mr. Trimble.

           STATEMENT OF MR. DAVID TRIMBLE, DIRECTOR,

               NATURAL RESOURCES AND ENVIRONMENT,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Trimble. Chairman Harris, Congressman Tonko, and 
Members of the Subcommittee, I am pleased to be here today to 
discuss GAO's work on EPA's laboratories. As you know, EPA 
operates its own laboratories because scientific research, 
knowledge, and technical information are fundamental to its 
mission and underpin the policies and regulations the agency 
implements.
    My testimony draws on the report we issued in July of this 
year on EPA's laboratory operations and will focus on three 
areas; longstanding planning, coordination, and leadership 
issues; management of EPA's workload and workforce; and 
management of EPA's real property.
    First, EPA has not fully implemented key recommendations 
from prior independent evaluations that were aimed at improving 
longstanding planning, coordination, and leadership issues. A 
1992 expert panel recommended that EPA implement a planning 
process that integrates and coordinates scientific work 
throughout the agency, including the work of its regional, 
program, and office and research and development laboratories. 
EPA has not fully implemented this recommendation.
    Instead, these offices independently plan the activities of 
their respective laboratories based on their own office's 
priorities and needs. Consequently, the EPA has a limited 
ability to know if scientific activities are being 
unintentionally duplicated among the laboratories or if 
opportunities exist to collaborate and share scientific 
expertise, equipment, and facilities across organizational 
boundaries.
    A 1994 evaluation by MITRE recommended EPA consolidate and 
realign its laboratory facilities and workforce, finding that 
the geographic separation of laboratories hampered their 
efficiency and technical operations, and the consolidation and 
realignment could improve planning and coordination, problems 
MITRE noted had hampered EPA's science and technical community 
for years.
    EPA has not fully implemented this recommendation and 
currently operates 37 labs across the Nation. Three studies, 
including two by the National Research Council, noted that 
EPA's planning and coordination issues are due in part to the 
lack of a top science official with the responsibility or 
authority to coordinate, oversee, and make management decisions 
regarding major scientific activities throughout the agency.
    In a 2000 report on improving science at EPA, NRC noted 
that the lack of a top science official was a formula for weak 
scientific performance in the agency and poor scientific 
credibility outside the agency. Currently EPA operates its 
laboratories under the direction of 15 different senior 
officials using 15 different organizational and management 
structures.
    In response to our report EPA has proposed to increase the 
responsibilities of its science advisor. It is not clear that 
this will fully address the issue. On this point let me note 
that the NRC's 2000 report concluded that the designation of 
ORD as a coordinator for the agency's scientific planning 
activities had proved to be insufficient because the position 
did not provide the level of authority or responsibility for 
oversight, coordination, and decision making. It also noted 
that the assistant administrator for ORD could not be 
reasonably expected to direct world-class science at ORD and 
also try to improve science practices throughout the rest of 
EPA.
    Second, EPA does not use a comprehensive planning process 
for managing its laboratories' workforce. Many of the regional 
laboratories provide the same or similar core analytical 
capabilities, but each region independently determines and 
attempts to address its individual workforce needs. EPA also 
lacks basic information on how many scientific and technical 
employees it has working its laboratories, where they are 
located, what functions they perform, or what specialized 
skills they may have.
    In addition, the agency does not have a workload analysis 
for the laboratories to help determine the operable numbers and 
distribution of staff throughout the enterprise. We believe 
that such information is essential for EPA to prepare a 
comprehensive laboratory workforce plan to achieve the agency's 
mission with limited resources.
    Third and finally, EPA does not have complete and accurate 
data on the real property associated with its laboratories. 
EPA's 37 labs are housed in 170 buildings and facilities in 30 
cities across the Nation. Real property management is a 
government-wide challenge that has been identified by GAO as a 
high-risk area.
    In 2010, the Administration directed agencies to speed up 
efforts to identify and eliminate excess properties to help 
achieve $3 billion in cost savings by 2012. In July, 2010, EPA 
told OMB that it did not anticipate disposing of any of its 
labs in the near future because the facilities were fully used 
and considered critical to the agency.
    However, we found that EPA did not have accurate and 
reliable information called for by OMB to inform this 
determination. Specifically, EPA did not have complete or 
accurate data on the need for the facilities, the property use, 
facility condition, and the facility's operating efficiency.
    This concludes my prepared statement. I would be pleased to 
answer any questions that you or other Members of the 
Subcommittee may have.
    [The prepared statement of Mr. Trimble follows:]
 Prepared Statement of Mr. David Trimble, Director, Natural Resources 
         And Environment, U.S. Government Accountability Office



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Harris. Thank you very much, Mr. Trimble, and I 
thank the panel for their testimony. Reminding Members that 
Committee rules limit questioning to five minutes. The chair 
will at this point open the round of questions, and I recognize 
myself for five minutes. And, again, thank you all for being 
here.
    Dr. Anastas, I have got some questions with regards to 
science and some with regards to administration. Let me start 
with regards to science.
    I understand that actually the EPA just issued its--the 
outline of how it is going to study the hydrofracturing. I 
think it was just issued a couple of weeks ago, and I 
understand part of that is the EPA plans to retrospectively 
sample its sights.
    Now, I got to ask, I mean, when I remember back to 
epidemiology, you only sampled retrospectively when prospective 
data is either, you know, unavailable or too expensive to 
obtain, but there are thousands of hydrofracturing wells being 
drilled where you can prospectively obtain data. Why would you 
choose retrospective data analysis? Again, this goes to the 
quality of the data that you are going to gather.
    I am sorry. Your mic is not on.
    Dr. Anastas. Thank you for the question. The study is 
designed to both include retrospective and prospective data. 
The retrospective data is to look at sites that have had 
reports of contamination to, one, verify if that contamination 
has, indeed, taken place, and two, what the cause of that 
contamination, if it----
    Chairman Harris. And that is exactly my point, Dr. Anastas, 
and I am sorry because we have got a few so I have got to rush 
you along a little bit, but you could never know how that 
contamination took place. All you know is the contamination is 
there then. You don't know if it naturally was occurring at 
that site, if it occurred before the hydrofracturing occurred.
    I mean, I got a real problem when we say we are going to do 
really good science, and then we say, well, by the way, we are 
going to look at something retrospectively that we can do 
prospectively.
    Now, at those samplings my understanding is that yesterday 
EPA indicated would not permit industry to shadow EPA when it 
sampled its sites. Now, you said that integrity--the one way 
you ensure integrity or at least encourage the perception of 
integrity is through transparency. Why wouldn't you want 
someone to be there when you sample the sites? Was that a 
decision that you all made or someone else in the--you know, 
your shop made or someone else?
    Dr. Anastas. The study is designed to have very close 
interaction with partners who are at the sites.
    Chairman Harris. Doctor, you know exactly what I am asking 
you. Can industry representatives be there when you sample 
these sites? I am being told that EPA indicated they would not 
permit industry to shadow EPA at the sampling of sites.
    Do you have something to hide with the way you sample? If 
not, why not let the sun shine in?
    Dr. Anastas. Of course not.
    Chairman Harris. You will reconsider that decision you 
think?
    Dr. Anastas. I think that the study is designed so that if 
the property owner allows for the presence of people beyond EPA 
on that site, then we have every desire to work collaboratively 
and as openly as possible.
    Chairman Harris. Boy, am I glad to here that. Thank you 
very much.
    Now, you said that science, Lisa Jackson says science is 
the backbone of EPA, and I want to read you a couple of things 
that she said, and I am going to ask you as a scientist if you 
agree.
    She said, ``We are actually at the point in many areas of 
the country where on a hot summer day the best advice we can 
give you is don't go outside, don't breathe the air, it might 
kill you.''
    Do you think that is the way a scientist would word 
findings? Are you comfortable with that as a scientist?
    Dr. Anastas. I believe the administrator was talking about 
the air quality concerns that she had and that when we are not 
doing what is needed to be done to improve the air quality that 
it is unacceptable that the advice is to simply stay inside.
    Chairman Harris. Don't breathe the air. It might kill you. 
Okay.
    Now, she also said in September that, ``If we could reduce 
particulate matter to health levels, it would have the same 
impact as finding a cure for cancer.'' Dr. Anastas, 600,000 
people in this country died from cancer. You--are you going to 
say scientifically, you are going to tell us that if we just 
reduce particulate matter to healthy levels, we are going to 
save 600,000 lives a year?
    Dr. Anastas. I believe what the administrator was saying 
was that the dramatic health benefits to reducing particulate 
matter statistically have the type of dramatic increase that 
you would have on increasing the battle against cancer.
    Chairman Harris. Six hundred thousand deaths a year. Dr. 
Anastas, a scientist, true standard deviations out from your 
estimate, does it include 600,000 deaths being avoided?
    Dr. Anastas. I do not have the numbers.
    Chairman Harris. Could you get me the numbers because that 
leads to my point, and I only have about 30 seconds I guess. I 
have asked for that exact information from someone who 
testified in front of this committee two months ago, and it 
said that the cross-state regulations avoid, ``up to 34,000 
premature deaths.''
    Now, Dr. Anastas, you are a scientist. That is not the way 
you word a result. That is the way you word a discussion, 
something else, opinion. The scientific answer is it is this 
estimate, this is the range of the estimate, and this is how I 
derived it. That is a pretty simple question I asked two months 
ago. Where is the holdup at the EPA? Is it your office, or is 
it some other place to get that very simple answer? Where does 
34,000 come from, what does up to 34,000 mean, what are the 
standard deviations associated with that estimate, is it a 
summary of the individual estimates that, you know, because you 
and I both know how you can get up to 34,000. You can take zero 
to 1,000 34 times and actually have a chance of it being zero. 
And yet I could say that it is up to 34,000.
    And you know as a scientist that wouldn't be subject to 
rigorous examination. So where is the holdup? Do you have any 
idea why I have to wait two months for a simple answer?
    Dr. Anastas. I will be happy to follow up with you to get 
those--that information to you.
    Chairman Harris. Thank you so very, very much, because, you 
know, I agree with you that, you know, science should be the 
backbone of EPA, and I agree with you that transparency will 
paint a--will contribute to the perception of integrity, but we 
have got to have both those things. Thank you, Doctor.
    And I now recognize Mr. Miller for five minutes, and 
welcome.
    Mr. Miller. Thank you, and I apologize for arriving on a 
dead run and not having been part of the hearing to this point. 
I did chair the Oversight Subcommittee of this Committee, the 
Science Committee, for four years and in the 2007 to 2009 
period, a turnaround time of two months from any agency in the 
Bush Administration would have been a great turnaround time.
    Mr. Elkins, you conducted a report on the EPA's peer review 
process, and you determined the EPA's peer review process was, 
your term was adequate to produce objective scientific review, 
and you said in your written testimony that there are areas 
where EPA's peer review process can be improved.
    Please tell us how the peer review process is adequate and 
how it could be better than adequate.
    Mr. Elkins. Well, our report for the most part looked at 
areas related to potential conflicts of interest in the peer 
review process and whether or not EPA adequately had procedures 
in place to not allow a conflict of interest to occur. What we 
found is that the procedures that EPA had in place did not 
adequately address that issue, but generally speaking we found 
that the peer review process was adequate.
    After our report was issued EPA agreed with our 
recommendations, amended its peer review handbook, and as of 
today it is adequate.
    Mr. Miller. Okay, and how long ago did they make those 
changes in their peer review process based on your 
recommendations?
    Mr. Elkins. I don't have that information with me. I 
believe that report was back in 2009. I can get that for you if 
you would like.
    Mr. Miller. Okay. I think this hearing is based upon a GAO 
report that I requested, and I requested it based on the 
Subcommittee's work, to see if EPA's agency-wide management of 
its research enterprise and laboratory infrastructure was all 
that it could be, and we have seen the results of those 
criticisms being a much broader criticism of EPA science, not 
just whether it was well managed or properly coordinated but 
whether it was honest and reliable.
    Dr. Trimble, in your investigation did you find any reason 
to question the quality of EPA scientific results? Was the 
science still valid?
    Mr. Trimble. The scope of our work did not go into issues 
of scientific quality. That would not be something that we 
would venture into, not being a science agency. Our work is 
really more are they positioned organizationally to be as 
strong as they could be.
    Mr. Miller. Okay. So you simply did not look at that. You 
have no reason based upon your evaluation, there is nothing in 
your evaluation that questions the quality of EPA's scientific 
work?
    Mr. Trimble. No, sir.
    Mr. Miller. Dr. Anastas, in light of the various problems 
or suggestions that GAO has made, what is the EPA now doing to 
ensure the quality and credibility of the scientific data and 
results? Are you changing based on the GAO's study?
    Dr. Anastas. In short the answer is yes. The 
recommendations from the GAO are welcome. Our response to the 
GAO enunciates how we are positively responding to those 
recommendations, each of those recommendations. Those responses 
are detailed in my written testimony and in short, we welcome 
the suggestions and outline how we are proceeding to act on 
those recommendations.
    Mr. Miller. Okay. Mr. Chairman, I will yield back 40 
seconds.
    Chairman Harris. Thank you very much.
    The chair now recognizes our colleague from California, Mr. 
Rohrabacher, for five minutes.
    Mr. Rohrabacher. Thank you very much, and thank you very 
much, Mr. Chairman, for the leadership that you are showing on 
this very significant issue of scientific integrity and the 
EPA. Those of us who have been around for awhile have seen that 
there are various methodologies that people utilize to obtain 
their political agenda, and I would have to say that in my 30 
years here in Washington I have never seen the politicalization 
of science so dramatically as we have in the last few years. 
But there has been evidence that for longer than that, of 
course.
    Let me just note that we have the IG here, the EPA's IG 
here. You stated and there is word from your office that the 
peer review process, which is, of course, one of the mainstays 
into the scientific process, when applied to greenhouse gas 
endangerment findings, that the EPA did not meet OMB's actual 
requirements for a peer review that withstands, that basically 
meets the standard. Is that correct?
    Mr. Elkins. Well, what our report looked at is process, and 
what we--what our report stated was that we believe that the 
endangerment finding process should have incorporated a highly-
influential scientific assessment, and if you follow that 
model, there are certain steps that need to occur as opposed to 
just the influential scientific assessment.
    Mr. Rohrabacher. Uh-huh.
    Mr. Elkins. And so our findings was based that if the HISA 
was not--that the EPA did not consider or they did not follow 
the HISA process when they----
    Mr. Rohrabacher. So it didn't meet the OMB requirements in 
this case. So those requirements had said it wasn't met and 
maybe you could tell us what has been done to alleviate that 
problem. Peer review of greenhouse gas research seems to have 
been compromised. How have you corrected that?
    Dr. Anastas. As Inspector General Elkins noted, there was 
no--and I believe as you know there is no determination that 
there was any problems at all with the science. What was looked 
at was the process. The----
    Mr. Rohrabacher. But if the process is faulty, you can't 
say that the outcome, oh, boy, the IG didn't find the outcome 
bad. If the process is bad, you don't know what your outcome 
is.
    Dr. Anastas. The EPA made the determination----
    Mr. Rohrabacher. Okay.
    Dr. Anastas. --that this was not a high-impact scientific 
assessment according to the OMB bulletin, a high-impact 
scientific assessment, that it was not a high-impact scientific 
assessment according to the OMB bulletin, and OMB agreed with 
that determination.
    Mr. Rohrabacher. So you did nothing. Thank you.
    Dr. Anastas. And if I may----
    Mr. Rohrabacher. So you determined that you didn't have to 
do anything even though you found that--even though the IG's 
office right there has found that you didn't meet the right 
standard.
    Dr. Anastas. And yet despite following OMB's direction we 
have still taken the IG's recommendations and are addressing 
each of those recommendations and will be addressing them 
fully.
    Mr. Rohrabacher. Well, we would hope that the next time 
that we hear that your IG reporting that your peer review 
process doesn't meet the OMB standards, that maybe they will be 
able to report that you do next time, but at this point I am 
not sure what your answer reflects, whether or not you have 
done anything differently, but we will see what the IG's report 
says next time around.
    The--let me just note that when you determine that there is 
a problem to be examined and that you are--then the EPA moves 
forward that now something is going to be regulated because you 
found a problem with it, it automatically means that there is a 
lot of things that the people are going to have to do now that 
they otherwise wouldn't have to do.
    There is a great deal of expense that takes place in our 
society based on your finding that there is a problem, and even 
though--and I would like you to tell me why, and let me see if 
I can pronounce it right, perchlorate. I have been noticing 
here, and I have been given by my staff, that the National 
Academy of Sciences and others have not found any problem with 
perchlorate, but the EPA has designated it as something that 
needs to be regulated by the EPA.
    Now, why is that? What is the scientific basis that you 
disagree with the National Academy of Sciences and others who 
did not find that a problem?
    Dr. Anastas. The scientific assessment of perchlorate had 
findings about the hazard, the degree of hazard of perchlorate. 
The determination of whether or not to regulate has certainly 
scientific input and other statutory considerations that need 
to be considered when making that determination. In whole all 
of those factors are considered by the administrator in making 
that determination.
    Mr. Rohrabacher. Thank you very much. I yield back. Thank 
you.
    Chairman Harris. I now recognize the gentleman from New 
York, Mr. Tonko, for five minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Dr. Anastas, thank you for your testimony and to all of you 
on the panel. But Doctor, in your testimony you mentioned that 
ORD has organized its research into six areas, providing ORD 
with opportunities to more effectively plan in what is a 
coordinated way rather than the ongoing individual basis.
    How do these six areas of research align with the research 
areas of the program and regional offices?
    Dr. Anastas. Thank you for the question because it is the--
it is that alignment that is the basis of why we undertook this 
effort. What has been done is to--rather than look at 
fragmented programs, instead engage our offices of water and 
air and solid waste in order to determine what the highest 
priority there is are and have that discussion directly between 
the program offices, the regional offices, and our researchers 
in ORD.
    It was through that very intensive process over the course 
of the past year that we identified these crosscutting areas 
that will not only give greater synergies and flexibility but I 
believe there is agreement not only internally but by our 
Science Advisory Board and our Board of Scientific Counselors 
that this will make it more effective in being responsive to 
those high-priority areas.
    Mr. Tonko. Now, when you do that, there might be a concern 
for duplication or overlap, and just what does the agency do to 
ensure that there isn't any of the overlap or duplication 
between ORD's research, for instance, and that of their program 
offices?
    Dr. Anastas. Yes. It is this effort, these conversations 
between ORD and the program offices that quite frankly are 
happening more now than any time in the past, that are looking 
to ensure that we don't have duplication. Those are the 
conversations that are taking place not only with individual 
offices but across program offices to ensure either 
complementarity to make sure that they are not--there is not 
duplication.
    Mr. Tonko. Thank you, and Dr. Anastas, you mentioned that 
ORD takes steps to ensure that there is an involvement by the 
program and regional offices in ORD's research planning 
process. You also indicate that ORD provides scientific 
expertise to those program offices as they develop those 
regulations and their policy.
    Now, does ORD have involvement in the research planning 
process of the program offices?
    Dr. Anastas. Yes. It is part of the same discussions that 
the program offices and the regional offices are, as I 
described, have complementary duties, complementary 
responsibilities. So the Office of Research obviously has 
responsibility for research, but other scientific analysis will 
take place in the program office, technical support, generation 
of data for immediate needs will take place in the regional 
offices, and those are coordinated through these conversations.
    Mr. Tonko. And what impediments, if any, are there to ORD 
and the program offices from being involved in one another's 
research planning process?
    Dr. Anastas. I believe that the efforts that we have 
undertaken over the course of the past year have removed many 
of those impediments and have--these regular dialogues, these 
formalized meetings, this regular follow-up is looking to and I 
think quite successfully removing the historical impediments.
    Mr. Tonko. Now, you say most of them. Are there any that 
might exist for which there is a concern or where there is a 
need for better flow or interaction?
    Dr. Anastas. I would be happy to give a thoughtful answer 
to that, and I will be happy to follow up if I can think of any 
additional impediments.
    Mr. Tonko. Thank you very much.
    Mr. Chair, I yield back.
    Chairman Harris. Thank you very much, and I will take 
advantage of the 40 seconds that the gentleman had to ask Dr. 
Anastas one question that is kind of burning to me because we 
would like to wrap this up before we go to vote.
    As a scientist, purely as a scientist, forget the EPA 
hydrofracturing study, forget that there is language saying, 
you know, we urge the EPA, which we know that is not, you know, 
statutory, binding, as a scientist, you have five objectives. 
You are looking at five things in the lifecycle, and that is--
one is, you know, whether or not you are withdrawing ground 
water, affecting groundwater resource, but then the last four 
have to do with contamination of ground water. Let's talk about 
those last four.
    Your testimony yesterday at Transportation & 
Infrastructure, there have been 1.2 million hydrofracturing 
wells drilled with no documented case of drinking water 
contamination, no--and I asked the panel, I keep on asking 
every panel, is there any--no. As a scientist 1.2 million 
applications of a technology with no documented affect on those 
last four things that study is looking for.
    Will you--I mean, do they come to you and say, look. Dr. 
Anastas, as a scientist should we really be studying that? Do 
we really need to study it? Did that question ever occur, or it 
is just--the assumption is we are going to do this study, so I 
am going to plow ahead.
    Dr. Anastas. There are two things that I would like to say. 
One is when concerns are raised to this Congress and Congress 
urges the EPA to undertake a study, we take that seriously, and 
I think that we all have a bias toward wanting more information 
out there.
    The second thing that I think answers your question 
directly is that you can't find what you are not looking for, 
and so how we thoughtfully construct a study that Congress 
urged us to do to ensure that we find out whether or not these 
concerns are valid and to what degree, I think that that is 
incumbent upon us when we are urged to do it by this Congress.
    Chairman Harris. The one thing I asked at the very 
beginning is forgetting the urging to do by Congress. As a 
scientist, 1.2 million applications of a technology.
    Dr. Anastas. You can't----
    Chairman Harris. Is there a justification for spending 
monies to do that study as a scientist?
    Mr. Miller. Mr. Chairman, I am really not persnickety about 
the rules, but the conduct of this hearing does not even 
resemble anything provided for in the House rules. Mr. Tonko 
did not yield you his 40 seconds.
    Mr. Rohrabacher. Let me note for my----
    Chairman Harris. Recognize the gentleman from California.
    Mr. Rohrabacher. I have been the chairman, having been the 
chairman of various subcommittees that you are absolutely wrong 
in your reading of the House rules, because those may have been 
the House rules before, but it is the prerogative of the 
chairman of a subcommittee as to how he will conduct that 
subcommittee hearing. I have been in many subcommittees where 
the chairman went on for 10 minutes in order to get a straight 
answer from a witness.
    Chairman Harris. Well, thank you, and look. I will end 
because this is the problem. We are blending politics with 
science. That is the disappointment.
    I recognize the gentleman from Maryland for five minutes.
    Mr. Bartlett. My question has to do with the same 
commonsense that the Chairman is talking about.
    We have a little community in western Maryland, George's 
Creek. By the way, in Maryland MDE acts instead of EPA, and 
that is because they are at least as stringent as EPA, so 
that--EPA lets them act.
    The effluent from the sewage treatment plant at George's 
Creek was a little bit out of bounds, and so they had to put in 
a new treatment plant. That was enormously expensive. This is a 
very small, very poor community. The state gave them all the 
grants that legally they could give them and still it was a 
huge financial burden on the community. All three county 
commissioners lost their last--their next election over it.
    Trying to negotiate with MDE over this that the juice 
wasn't going to be worth the squeezing was like trying to talk 
the fly out of snatching the--the toad out of snatching the 
next fly. That wasn't going to happen. They were totally 
mindless.
    George's Creek is hundreds of miles from the bay, and the 
river enters in where the bay empties into the ocean. It is 
going to be little or no effect to this. There were many other 
better places to spend that money than forcing George's Creek 
into this.
    Where does commonsense enter in? Clearly that money could 
have been better spent somewhere else than at George's Creek, 
but there was no negotiating with these people, and there are 
many regulations that you might have that will cause such an 
economic burden that the money might be better spent somewhere 
else in our society.
    How do you make these commonsense decisions?
    Dr. Anastas. One of the things that I would like to say 
about making commonsense decisions or decisions about science 
is that politics cannot, will not, and must not enter into 
scientific decisions. Politicizing science is antithetical to 
everything I am and everything that I do.
    When we engage in scientific studies with the hydraulic 
fracturing study being discussed today, we have engaged 
scientific experts from all walks of life, from industry, from 
academia. We have engaged thousands of people from the public 
to ensure that this scientific study will be objective. We will 
not presuppose the results of this scientific study one way or 
the other.
    Mr. Bartlett. Sir, I think the chairman's concern is that 
if there had been 1.2 million frackings and there is zero 
evidence of any groundwater contamination, any aquifer being 
contaminated, why would it be commonsense to spend any money on 
a scientific study? Aren't there other places we can better 
spend our money?
    Dr. Anastas. I believe that with an endeavor of the 
importance of hydraulic fracturing . . .
    Mr. Bartlett. But we have done it 1.2 million times and no 
evidence of any contamination. Isn't there better places we 
might spend our money than scientific--I am a scientist. I 
spent a whole lot of my life doing that, so I understand 
science.
    Dr. Anastas. The level of concern that has been raised by 
the public needs to be addressed as recognized by this----
    Mr. Bartlett. But how can the public have a concern when 
there are zero evidences of contamination after 1.2 million 
fracking operations?
    Dr. Anastas. I have to repeat that you can't find something 
if you don't look, if you don't ask the questions, if you don't 
do the science. That is why we do science, to answer the 
questions, to address the concerns. So one way or the other 
objectively we can state what the current state of affairs is.
    Mr. Bartlett. You don't think that there is some validity 
in observing that 1.2 million fracking operations that have not 
produced any evidence of water contamination, you don't think 
that that is relevant?
    Dr. Anastas. I think all data is relevant. All objective, 
scientifically-credible data is relevant. The absence of data 
is not proof of anything. We construct scientific studies to 
get data that we can turn into information, that we can turn 
into knowledge. That is what the scientific----
    Mr. Bartlett. Let me ask you a question. If you go to the 
communities where we have had these 1.2 million fracking 
operations and you ask them, has there been any water 
contamination, and they tell you, no, so is that not a 
reasonable scientific investigation?
    Dr. Anastas. It is exactly because we have gone out and 
asked have there been contaminations, and when people say the 
answer is yes, part of this study is to validate whether or not 
that is true, whether or not that has happened.
    Mr. Bartlett. But it is my understanding that there has 
been no documented evidence of contamination with 1.2--who says 
there has been contamination if that is not documented?
    Dr. Anastas. It is the documentation or lack of 
documentation that we seek. If somebody reports that there has 
been contamination, that needs to be scientifically validated.
    Mr. Bartlett. I hope that is the most urgent place to spend 
your money. I doubt that it is.
    Thank you, Mr. Chairman. I yield back.
    Chairman Harris. Thank you very much, Mr. Bartlett.
    Mr. McNerney, the gentleman from California, is recognized 
for five minutes. Thank you.
    Mr. McNerney. Thank you, Mr. Chairman. Thank you to the 
panel for coming here today.
    The EPA is a large organization, it has a lot of different 
laboratories, the statutes haven't been changed for a long 
time. There is no doubt in my mind that there is room for 
improvement. There is possible duplication, there is possible 
processes that could be improved, and so on, and I think that 
is an important function that this Subcommittee should be going 
after, and yet, nothing in this hearing today from the other 
side has been helpful in that stated goal of this hearing, to 
gain an understanding of the best ways to reorganize and 
reauthorize the ORD.
    So moving forward, Mr. Elkins and Mr. Trimble had a fairly 
good list of suggestions that they claimed have not been 
implemented by the ORD. So, Mr. Elkins and Mr. Trimble, is it 
your opinion that this is being resisted, that these changes 
are being resisted, or are there statutory or resource 
limitations that are keeping these suggestions from being 
implemented?
    Mr. Elkins. Actually, the reports that we have issued to 
ORD for the most part they have been responsive to our 
recommendations. We have, you know, we have had a few 
recommendations such as the endangerment finding, we are still 
waiting a response back from, but generally speaking they have 
been responsive.
    Mr. McNerney. So the impression I had earlier in your 
testimony was that they weren't being responsive, but what I am 
hearing now is, yes, the recommendations are being listened to, 
and they are being responded to as the agency has the 
capability to respond.
    Mr. Elkins. Generally speaking I think that would be 
accurate----
    Mr. McNerney. Thank you. Mr. Trimble.
    Mr. Trimble. I think EPA has generally been agreeable to 
our recommendations, taking a very positive approach to this. 
The one area where I think we have a disagreement is concerning 
the recommendation about establishing a top science official 
for EPA to manage all the science activities.
    As I noted in my opening comments their proposal to add 
additional responsibilities to the science advisor I think is 
probably going to be problematic. We will track that, but as I 
noted the NRC back in 2000 when they were tracking the same 
issue stated in their report that they had underestimated the 
size of the challenge that would be faced in coordinating 
science activities across the agency, and they explicitly noted 
the challenge of dual heading the chief of ORD with this 
responsibility. And much of what they focus on is to corral all 
the sort of three types; the programs, the regions, and ORD, 
you need somebody with authority. In a bureaucracy that means 
management and budget in reality to make things happen and to 
knock heads and make----
    Mr. McNerney. I mean, that sounded like a good 
recommendation. Do you think there is a statutory limitation 
that is preventing that from happening, or is there just some 
resistance within the department? What is your----
    Mr. Trimble. I know in the NRC's recommendation it 
requested that go forward with a second deputy, which I believe 
would require action by the Hill. We didn't recommend that it 
go that far, but we recommended that it be a senior person 
above all the labs. Whether or not EPA could do that on its own 
I suspect they could, but that is not something we have delved 
into.
    Mr. McNerney. Okay. Thank you. Now, what has suffered from 
these problems that you all have found? Is it the quality or 
the quantity? What has been the negative fallout from those 
deficiencies?
    Mr. Elkins. Well, I think it depends on the report. You 
know, it depends on the area that we have looked at, but 
generally speaking, for instance, on the workload issues and 
the workforce planning, position management, the issue there is 
not being able to estimate exactly what your workload is, and 
therefore, not being able to determine what human resources you 
need to address those issues or the specialties that you need 
on staff. That is an issue.
    The other issue that has come up in other studies has to do 
with data quality, which relates to the information coming in 
whether it is reliable and whether or not there are systems and 
procedures in place to make sure that it is reliable.
    These are the types of concerns and questions that have 
come up through the reports that we have done.
    Mr. Trimble. What I would highlight specifically to this 
top science official, I would just go back to the NRC report 
that noted that the lack of a top science official is a formula 
for weak scientific performance and poor scientific 
credibility. So I think you have this over-arching effect.
    More specifically, you have potentially lost opportunities 
for collaboration, for consolidating resources, you know, 
especially with the tight budgets in terms of workforce and 
workload and facilities. You miss opportunities to leverage 
that.
    And then without the data on workload and workforce, you 
are not in a position to know whether you have got the right 
people at the right place doing the right thing.
    Mr. McNerney. Okay. Then, again, this may be a statutory 
issue. It may not--it may be that the EPA doesn't have the 
authority to create that position on its own.
    I yield back.
    Chairman Harris. Thank you very much.
    I would now recognize the chairman of the committee, Mr. 
Hall from Texas, for five minutes.
    Chairman Hall. Thank you, sir.
    Dr. Anastas, I would like to raise a few concerns about 
EPA's study of the relationship between hydraulic fracturing 
and water. We have had a lot of testimony here, and basically 
the testimony has been that there is just no way in the world 
that the testimony you and others from your department have 
given could be true. And I want to ask you in response to 
questions I sent to you for the record from hydraulic 
fracturing hearing in May, you responded on September 23 that 
all aspects of this research would have, and I quote, this is 
your quote, ``an associated quality assurance project plan'' 
which has been ``reviewed and approved prior to the stated data 
collection.''
    However, your agency started testing and data collection 
before the final study plan was done.
    My question is were specific project plans completed and 
subjected to public comment and external peer review prior to 
testing and prior to the release of the full final study plan? 
Yes or no?
    Dr. Anastas. A quality action project plan is not----
    Chairman Hall. I didn't ask you that. Just give me a yes or 
no answer to the question I asked you. I don't want a lecture 
from you.
    Dr. Anastas. The quality action project plans are reviewed 
by experts both internally and externally.
    Chairman Hall. Were they reviewed?
    Dr. Anastas. They were reviewed.
    Chairman Hall. Well, that is what I asked you. Were 
specific project plans completed and subjected to public 
comment and external peer review prior to testing and prior to 
the release of the full final study plan, and your answer----
    Dr. Anastas. The review process----
    Chairman Hall. --to that is yes. Is that right?
    Dr. Anastas. No. The answer is that they were externally 
and internally reviewed. The process by which they go through 
that review is different from that of the full project 
protocols and plan.
    Chairman Hall. Do you consider this study, ``a highly 
influential scientific assessment?''
    Dr. Anastas. That determination has not been made.
    Chairman Hall. Why do you think it hadn't been made?
    Dr. Anastas. I can tell you that it has not been made but--
and that it certainly will be a decision that we will--and a 
determination that we will make.
    Chairman Hall. Do you think it doesn't meet the threshold?
    Dr. Anastas. That determination has not been made.
    Chairman Hall. Mr. Elkins, in your opinion do you think the 
hydraulic fracturing study should be considered a highly-
influential scientific assessment?
    Mr. Elkins. Sir, we really haven't taken a look at that 
particular issue, so I am not in a position to comment.
    Chairman Hall. Okay. E&E News reported that EPA has 
abandoned its announced study protocols in order to, ``release 
more of its findings in 2012.'' Can I get any assurance that 
the committee--can you give the committee any assurance that 
this target release date is not politically driven?
    If so, what is the difference between releasing findings in 
the late 2012 versus, say, early 2013?
    Dr. Anastas. I can give this committee complete assurance 
that the release of data is not politically driven.
    Chairman Hall. I have one last question. Do I have a little 
time left?
    Chairman Harris. Yes, you do, Mr. Chairman.
    Chairman Hall. Mr. Trimble and Mr. Elkins, your offices 
have been critical of EPA's process for selecting impartial 
scientific advisory panels. Can you describe the problems that 
you have incurred in the agency's handling of external peer 
review panels and what can be done to prevent EPA from stacking 
the panels?
    Mr. Elkins. Well, yes, sir. In the one report that we have 
done that addressed that specifically, again, that I believe we 
did back in 2009, the specific issue was whether or not the 
Agency had systems in place to identify any conflicts of 
interest. At that time we found that the system wasn't robust 
enough to make those sorts of determinations, but since we 
brought that to the agency's attention, they have addressed 
that, and in their current peer review handbook it does 
address, you know, our concerns.
    Chairman Hall. I thank the gentlemen. I yield back.
    Chairman Harris. Thank you very much.
    I just want to--before we break up I want to thank the 
witnesses for their valuable testimony, all the Members for 
their questions. To provide a brief clarification for Dr. 
Morgan's letter for the record, unfortunately Dr. Morgan was 
unable to confirm his video attendance at this hearing until 5 
hours after the deadline for testimony to be submitted. We are 
happy to include his comments in letter form as we have 
accepted and look forward to working with all members of the 
scientific community in the future.
    The Members of the Subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. The record will remain open for two weeks for 
additional comments from Members. The witnesses are excused. 
The hearing is adjourned.
    [Whereupon, at 4:02 p.m., the Subcommittee was adjourned.]
                              Appendix I:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by DR. Paul Anastas,
Assistant Administrator,
Office Of Research And Development,
U.S. Environmental Protection Agency;

Questions Submitted by Chairman Andy Harris



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Mr. Arthur Elkins, Jr., Inspector General,
U.S. Environmental Protection Agency

Questions Submitted by Chairman Andy Harris



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Mr. David Trimble, Director,
Natural Resources And Environment,
U.S. Government Accountability Office

Questions Submitted by Chairman Andy Harris



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            Appendix II: Additional Material for the Record



<SKIP PAGES = 000>

  Submitted Statement for the Record by Mr. M. Granger Morgan, Head, 
 Department of Engineering and Public Policy University and Lord Chair 
          Professor of Engineering, Carnegie Mellon University



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
